Report No. D-2009-048           January 30, 2009




DoD Small Business Innovation Research Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dogig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms

DARPA                 Defense Advanced Research Projects Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
GAO                   Government Accountability Office
IG                    Inspector General
OUSD                  Office of the Under Secretary of Defense for Acquisition, Technology,
                      and Logistics
RDT&E                 Research, Development, Test, and Evaluation
SBA                   U.S. Small Business Administration
SBIR                  Small Business Innovation Research
STTR                  Small Business Technology Transfer
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704

                                                                                  January 30, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
                   DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS
               ASSISTANT SECRETARY OF THE NAVY (RESEARCH,
                 DEVELOPMENT, AND ACQUISITION)
               NAVAL INSPECTOR GENERAL
               ASSISTANT SECRETAR Y OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARMENT OF THE ARMY
               DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS
                 AGENCY

SUBJECT: Report on the DoD Small Business Innovation Research Program
         (Report No. D-2009-048)


We are providing this report for review and comment. We considered comments fl'om the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics; the Assistant
Secretary of the Navy (Research, Development, and Acquisition); and the Director, Defense
Advanced Research Projects Agency when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We received
comments from the Under Secretary of Defense and the Assistant Secretary of the Navy to
recommendations made in a draft ofthis report. Client comments to Recommendation A.2. were
fully responsive. Client comments to all other recommendations were partially responsive. In
response to the client comments, we revised Recommendations A.I. and B.I.a. Therefore, we
request additional comments from the Under Secretary of Defense to Recommendations A.I.,
A.3., A.4., B.i.a., and B.I.b.; and from the Assistant Secretary of the Navy for Recommenda-
tion B.2. by March 2, 2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. Ifpossible,
send comments in electronic format (Adobe Acrobat file only) to AudACM@dodig.mil. Copies
of the comments must have the actual signature of the authorizing official for your organization.
We cannot accept the I Signed I symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Questions should be directed to Richard B.
Jolliffe at 703604-9201. If you desire, we will provide a formal briefing on the results.




                                            Ric 1ard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
       Report No. D-2009-048 (Project No. D2006-D000AB-0215.000)                  January 30, 2009


               Results in Brief: DoD Small Business
               Innovation Research Program
                                                               Establish supplemental funding to
What We Did                                                     administer the SBIR program.
Evaluated whether Military Departments and                   Designate SBIR internal champions
the Defense Advanced Research Projects                          within acquisition program offices.
Agency (DARPA) effectively used the Small
Business Innovation Research (SBIR) program                  Require SBIR contracting personnel to
for research and development projects to meet                   record Phase III contracting actions in
DoD requirements and whether projects                           DoD and Federal databases.
developed for the SBIR program resulted in                   Limit the length and cumulative award
products for commercial or military markets.                    amounts of Phase II contracts.
What We Found                                                Require that any additional non-SBIR-
                                                                funded work, not applicable to a Phase II
       Army, Navy, Air Force, and DARPA                        basic contract under SBA policy
        used different methodologies to track                   guidelines, not be funded as part of the
        and report SBIR commercialization.                      Phase II contract.
       Inconsistent approaches to reporting            The Assistant Secretary of the Navy (Research,
        Phase III contracting actions may have          Development, and Acquisition) should establish
        led to underreporting of SBIR successes.        controls to monitor compliance with standards
       Underreported SBIR successes may                for periods of performance and cumulative
        affect future congressional decisions to        award amounts.
        reauthorize the Federal SBIR program
        and diminish the role that small                Client Comments and Our
        businesses play in early-stage research         Response
        and development with DoD activities.            The Under Secretary partially agreed with
       27 of 34 contracts reviewed extended the        recommendations stating that a DoD Directive
        period of performance by an average of          governing the SBIR program would be issued
        24 months beyond the U.S. Small                 by December 2009. The new Directive would
        Business Administration (SBA)                   include a requirement to designate SBIR
        24-month recommended period of                  liaisons, make SBIR codes required fields in the
        performance.                                    Federal Procurement Data System-Next
                                                        Generation, incorporate SBIR program award
       Managers exceeded SBA recommended               guidelines, require annual reporting, and
        funding by a total of $16.4 million on 21       encourage use of Phase III contracts to track
        of 34 contracts reviewed.                       program activity and the direct uptake of SBIR
                                                        technology. The Assistant Secretary of the
       DoD, Army, Air Force, and DARPA                 Navy agreed to establish controls to monitor
        internal controls were not adequate for         compliance with standards for periods of
        ensuring that SBIR program offices              performance and cumulative award amounts.
        managed SBIR Phase II contracts                 Although not required to comment, the Director,
        according to the SBA policy guidelines.         DARPA generally disagreed with the findings.
What We Recommend                                       We request that the Under Secretary of Defense
The Under Secretary of Defense for                      for Acquisition, Technology, and Logistics; and
Acquisition, Technology, and Logistics should:          the Assistant Secretary of the Navy (Research,
    Mandate adherence to a consistent                  Development, and Acquisition) provide further
       methodology for identifying and                  comments in response to this report. Please see
       reporting SBIR projects transitioning to         the table on the back of this page.
       Phase III commercialization.
                                                    i
 Report No. D-2009-048 (Project No. D2006-D000AB-0215.000)             January 30, 2009

Recommendations Table
Client                            Recommendations             No Additional Comments
                                  Requiring Comment           Required
Under Secretary of Defense for    A.1., A.3., A.4., B.1.a.,   A.2.
Acquisition, Technology, and      B.1.b.
Logistics

Assistant Secretary of the Navy   B.2.
(Research, Development, and
Acquisition)


Please provide comments by March 2, 2009.




                                               ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                              1
       Review of Internal Controls                                             1
       Background                                                              1

Finding A. Reporting Small Business Innovation Research Commercial
Success                                                                         4

       Recommendations, Client Comments, and Our Response                      12

Finding B. Small Business Innovation Research Phase II Contract
Management                                                                     18

       Recommendations, Client Comments, and Our Response                      25

Appendices

       A. Scope and Methodology                                                30
             Prior Coverage                                                    31
       B. Small Business Innovation Research Phase II Project Duration
             and Funding                                                       33
       C. Summary of Client Comments and Our Response                          35

Client Comments

       Under Secretary of Defense for Acquisition, Technology, and Logistics   51
       Department of the Navy                                                  59
       Defense Advanced Research Projects Agency                               66
Introduction
Objectives
Our overall audit objective was to determine whether DoD is effectively managing the
Small Business Innovation Research (SBIR) program. Specifically, we determined
whether Defense agencies and Military Departments are effectively using the SBIR
program for research and development projects to meet DoD requirements and whether
the projects developed for the SBIR program result in products for commercial or
military markets.

Review of Internal Controls
We identified internal control weaknesses for the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Army; the Air Force; and the
Defense Advanced Research Projects Agency (DARPA) as defined by DoD Instruction
5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006.
DoD officials did not establish adequate internal controls for ensuring that SBIR program
offices managed SBIR Phase II contracts according to the SBA Federal guidelines on
period of performance and cumulative funding amounts. Implementing
Recommendations B.1.a. and B.1.b. will improve contract management and
administration procedures for the DoD SBIR program. Improving these procedures will
result in more effective transitions of SBIR projects to meet DoD requirements.

We will provide a copy of this report to the senior officials responsible for internal
controls in the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics; the Department of the Army; the Air Force; and DARPA.

Background
The SBIR program was established under Public Law 97-219, “Small Business
Innovation Development Act of 1982,” July 22, 1982, and reauthorized through
September 30, 2008, by the Public Law 106-554, Title I, “Small Business
Reauthorization Act of 2000,” December 21, 2000. The U.S. Small Business
Administration (SBA) is the coordinating agency for the SBIR program. The SBA
maintains overall Federal policy for SBIR and directs 11 Federal agencies’1
implementation of SBIR, reviews their progress, and reports annually to Congress on the
program’s operation. As required by Public Law, the SBA is responsible for ensuring
that the 11 Federal agencies reserve a portion of their overall research and development
extramural budget for award to small businesses.



1
 The 11 Federal agencies participating in the SBIR program are the Department of Agriculture, Department
of Commerce, Department of Defense, Department of Education, Department of Energy, Department of
Health and Human Services, Department of Homeland Security, Department of Transportation,
Environmental Protection Agency, National Aeronautics and Space Administration, and the National
Science Foundation.


                                                   1
The SBIR program is a highly competitive program that encourages small businesses to
explore their technological potential and provides the incentive to profit from
commercialization. The program strengthens the role of qualified small businesses in
meeting Federal research and development needs by stimulating technological
innovation, increasing private sector commercialization, and enhancing participation of
socially and economically disadvantaged small businesses. The DoD SBIR program is
composed of the Army, Navy, Air Force, and nine Defense Agencies.2 The DoD SBIR
program was funded with approximately $1.14 billion in FY 2007. The purpose of the
DoD SBIR program is to develop the innovative talents of small technology companies
for U.S. military and economic strength by funding early-stage to later-stage research and
development. The four statutory goals of the DoD SBIR program are to:
       stimulate technological innovation,
       use small businesses to meet research and development needs,
       foster and encourage participation by minority and disadvantaged people in
        technological innovation, and
       increase private sector commercialization innovations derived from research and
        development.

SBIR Phases
The SBIR contractual process is structured into the following three phases:
       Phase I: initial determination of technical feasibility,
       Phase II: prototype development, and
       Phase III: commercialization of the technology in either the military or private-
        sector markets.

The “Small Business Innovation Research Program Policy Directive,” September 24,
2002, (the SBA Policy Directive) notes that Phase I allows small businesses to bid on
early-stage research and development solicitations to determine initial approaches to
specific DoD requirements. Phase II contracts further develop the research and
development efforts, and in many cases require delivery of a prototype. Small businesses
may submit Phase II proposals only by Government invitation. Government
consideration of the commercial potential of Phase II proposals is an evaluation factor for
selecting the Phase II awardees. Phase III commercialization is intended to meet one of
the major statutory goals of the SBIR program. SBIR funds may not be used in Phase III,
and Phase III includes no limitations on the period of performance or funding amounts.
DoD issues a SBIR solicitation three times a year describing its research and
development needs and inviting proposals from small companies. For Phase I,
companies bid for a 6- to 9-month Phase I award of $70,000 to $100,000 to test the
scientific, technical, and commercial merit and feasibility of a particular concept. If

2
The nine Defense agencies participating in the SBIR program are the Missile Defense Agency, Defense
Advanced Research Projects Agency, Chemical Biological Defense, Special Operations Command,
Defense Threat Reduction Agency, National Geospatial-Intelligence Agency; Defense Logistics Agency,
Defense Microelectronics Activity, and the Office of Secretary of Defense.


                                                  2
Phase I proves successful, the Government may invite the company to submit a proposal
for a 2-year Phase II award of up to $750,000 to further develop the concept. When
Phase II is complete, small companies are expected to obtain funding from the private
sector or non-SBIR Government sources to develop the concept into a product for sale in
the private sector or military markets.




                                           3
Finding A. Reporting Small Business
Innovation Research Commercial Success
The Army, Navy, Air Force, and Defense Advanced Research Projects Agency (DARPA)
used different methodologies, policies, and procedures for recording and reporting Small
Business Innovation Research (SBIR) projects that transition to Phase III contracts. They
used different methodologies because DoD has no overall guidance for tracking and
reporting SBIR awards. We believe the Navy did the best job of capturing SBIR results.
However, the Army, Air Force, and DARPA may be underreporting successful SBIR
projects to DoD management officials, which may lead to DoD underreporting the full
breadth of success of the SBIR program to Congress. Underreported SBIR successes
may affect future congressional decisions to reauthorize the Federal SBIR program and
diminish the role that small businesses play in early-stage research and development with
DoD activities.

SBIR Commercialization Guidance
Small Business Administration Guidance
The SBA Policy Directive requires Federal agencies to submit an annual report to the
SBA that includes Phase III awards using non-SBIR Federal funds. The Federal agency
must enter the name, address, project title, and dollar amount obligated. The SBA Policy
Directive also states that participating Agencies and Departments must collect and
maintain information from awardees and provide it to the SBA to develop and maintain
the SBA Technology Resources Access Network (Tech-Net) database. The data entered
in the Tech-Net database provide a quantitative method to measure commercialization
results. In October 2006, the Government Accountability Office (GAO) stated that the
SBA was 5 years behind schedule in meeting a congressional mandate to implement a
restricted Tech-Net Government-use database for the SBIR program.1 The SBA Policy
Directive requires Phase II awardees to update information on the Tech-Net database
upon completion of the last deliverable under the funding agreement. In addition, the
Phase II awardee is requested to voluntarily update information on that award via the
Tech-Net for a minimum of 5 years.

Small Business Administration Commercialization Definition
The SBA Policy Directive defines commercialization for Federal agencies as the process
of developing, producing, and delivering marketable products or services to Government
or private-sector commercial markets.


1
 See GAO Report No. 07-38, “Agencies Need to Strengthen Efforts to Improve the Completeness,
Consistency, and Accuracy of Awards Data,” October 19, 2006. GAO found that participating Federal
agencies submit most of the information required by SBA, but they did not consistently provide all required
data elements resulting in incomplete sections of the Tech-Net database. Agencies told GAO that they do
not always enter all data elements because the agencies do not collect all of the information that SBA wants
and because the SBA requirements change regularly.


                                                     4
DoD Guidance
The DoD Office of Small Business Programs acts as the SBIR program office within the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
However, the DoD Office of Small Business Programs has not issued DoD-wide policy
on how the Military Departments and Defense agencies should account for Phase III
commercialization of SBIR projects. Because DoD has no overarching policy, each of
the Military Departments used different methodologies, policies, and procedures for
recognizing, recording, and reporting SBIR projects that can transition to
commercialization according to SBA guidance.

SBIR Tracking in DoD and Federal Procurement Databases
Defense Federal Acquisition Regulation Supplement (DFARS) 204.670, “Contract
Action Reporting Requirement,” requires that Departments and Agencies report all
contracting actions, including SBIR actions, in accordance with DFARS Procedures,
Guidance, and Information (PGI) 204.670-2(a), “Reportable Contracting Actions.”
DFARS PGI 204.670-2(a) and 204.670-3, “Contracting Office Responsibilities,” require
contracting offices to complete a DD Form 350 for all SBIR actions based on the stated
criteria. The DoD Contracting Action Data System (known as the DD 350 database)
includes data fields that specifically recognize SBIR phases. The Federal Procurement
Data System-Next Generation, which replaced the DoD Contracting Action Data System
in FY 2007, also includes data fields to track SBIR contract actions. Both systems are
intended to allow decision makers to see how DoD is spending money for various
procurements. However, DoD did not fully use either system to track SBIR contract
actions.

SBIR Company Commercialization Report Database
The DoD Office of Small Business Programs maintains a Company Commercialization
Report database that contains a history for each SBIR firm to aid DoD Components in
SBIR source selection decisions. All firms submitting a Phase I or II proposal are
required to prepare a Company Commercialization Report using the DoD Electronic
Submission Web site. That Web site collects information used to calculate a
Commercialization Achievement Index value. Phase II SBIR awardees can also
voluntarily report their Phase III sales and investments. Only firms with four or more
Phase II projects that were awarded at least 2 years prior2 will receive a
Commercialization Achievement Index score. The DoD Office of Small Business
Programs also uses the information from the database to compile internal DoD
commercialization reports. The DoD SBIR Program Manager stated that the existing
DoD Company Commercialization Report database captures 70–80 percent of all SBIR
activity in the Federal Government and captures 37 percent of all non-DoD SBIR actions.
The DoD SBIR Program Manager also stated that information from the database was
used for annual Phase III reporting to SBA. SBA officials stated that the DoD and the


2
 SBIR firms with Commercialization Achievement Index scores in the 15th percentile or lower are limited
to scores of no more than 50 percent for past performance. Contracting officers may consider
Commercialization Achievement Index Scores in determining future SBIR source selections.


                                                   5
Department of Health and Human Services National Institutes of Health were
substantially ahead of other Federal agencies in establishing their own commercialization
tracking databases. However, DoD officials stated that the Company Commercialization
Report database is limited because the DoD relies on voluntary contractor participation,
which may result in incomplete data capture of commercialization successes. In addition,
DoD officials are concerned that the DoD data in the Company Commercialization
Report database will not transfer into the SBA Tech-Net database because of differences
in data definitions for some data fields that could render some data incompatible between
the databases.

DoD SBIR Guidance
The Army, Navy, and Air Force use different methodologies, policies, and procedures for
recording and reporting SBIR projects that are awarded as Phase III contracts. DARPA
does not award Phase III contracts. Once a program is proven feasible, DARPA
transitions the program to the Military Services for development. Unlike the Army,
Air Force, and DARPA, the Navy has SBIR guidance that emphasizes transitioning,
achieving, and reporting Phase III commercialization.

Army
The Department of the Army Pamphlet 70-3, “Army Acquisition Procedures,” July 15,
1999, provides a minimal description of the Army SBIR program. It has no specific
guidance relating to the tracking and reporting of SBIR Phase III commercialization.

Navy
Secretary of the Navy Instruction 4380.7B, “Implementation of the Department of the
Navy (DON) Small Business Innovation Research (SBIR) Program,” December 23,
2005, provides a general description of the Navy SBIR program, and delegates program
management of the program to the Navy acquisition community. This instruction
distinguishes itself from other DoD Components’ SBIR criteria because the Navy
emphasizes commercialization. Specifically, the instruction requires that every Navy
Program Executive Officer designate a SBIR manager responsible for advocating
transition of SBIR products to Navy platforms or systems. The Navy instruction requires
Phase III award transition planning, tracking mechanisms, and reporting. This guidance
strengthens the Navy’s commitment to transitioning projects toward commercialization.

Air Force
Air Force Materiel Command Instruction 61-101, “Small Business Innovation Research
(SBIR) Program and Small Business Technology Transfer (STTR) Program,” July 14,
2000, describes the operation and responsibilities of the Air Force SBIR program. The
instruction does not provide information or procedures relating to the tracking and
reporting of SBIR Phase III commercialization.

Defense Advanced Research Projects Agency
DARPA Instruction No. 35, “Administration of the Small Business Innovation Research
(SBIR) Program,” August 28, 1996, states that SBIR is a three-phase program. However,


                                           6
the instruction states that DARPA’s participation in the SBIR program extends only
through Phase II. Consequently, this Instruction does not address procedures relating to
the tracking and reporting of SBIR Phase III commercialization.

SBIR Phase III Commercialization Tracking and
Reporting
The Navy reported Phase III commercialization success rates that exceeded those of the
Army, Air Force, and DARPA. Although each DoD Component we reviewed
periodically publishes selected notable qualitative SBIR success stories, only the Navy
has devoted resources to recognize its Phase III transitions through reporting in the
DD 350 database.

Army
The Army SBIR program office did not collect, track, or submit commercialization data
to the DoD SBIR office or track SBIR Phase III actions via the DD 350 database.
Instead, the Army relied on SBIR firms to self-report commercial sales and investment
information to the Company Commercialization Report database for use on subsequent
SBIR proposals.

Navy
The goal of the Navy SBIR program was to transition SBIR technology into Navy and
DoD systems. The Navy made a concerted effort to track SBIR Phase III contract awards
through use of the DD 350 database and to report Phase III contracting actions that have
reached the commercialization phase. Thus, the Navy had a mechanism with which to
measure transitions to Phase III, based on actual SBIR contractual activity.

The Navy identified Phase III SBIR contract awards of $383.8 million (FY 2005) and
$397.4 million (FY 2006) from the DD 350 databases. The Navy publicly reported
successful aggregate transitions, through official publications available on the Navy
SBIR Web site, showing the DD 350 Phase III Navy awards. In July 2006 at the Naval
Science and Technology Conference the Director, Navy SBIR reported that in FY 2003,
of the $342 million DoD Phase III contracts, the Navy reported $277.5 million
(81 percent).

The Navy SBIR Director stated that the Navy success with DD 350 reporting was based
on:
      the Navy making many more Phase III awards than the other Services,
      Navy oversight and management of Phase I and II awards derived from
       Acquisition Phase III funding sources, and
      the Navy properly educating small businesses and contracting officers on
       Phase III contracts including SBIR data rights clauses.




                                            7
Air Force
Although the Air Force did not formally track the DD 350 data for Phase III reporting
purposes, the Air Force identified Phase III contract awards of $50.5 million in FY 2005
and $70.7 million in FY 2006. The Air Force SBIR Program Manager stated the
Air Force was not required to measure and collect commercialization data. Air Force
personnel frequently used modifications to extend Phase II contracts well beyond the
24-month Phase II period of performance. The Air Force practice of extending Phase II
contracts delays SBIR projects from entering the commercialization phase. See finding B
for further details. Air Force SBIR officials later noted Phase II projects are typically
expanded to perform more research and development work in order to raise the
technology levels and reduce the project risk. However, we believe that this practice
could delay Phase III awards, the stated goal for SBIR technology insertion.

Defense Advanced Research Projects Agency
DARPA did not use the DD 350 database to track its SBIR programs. The DARPA
SBIR Program Manager stated that the agency did not use the DD 350 database to collect
SBIR data because the system was not reliable. Instead, DARPA used the DoD
Company Commercialization Report database to gauge contractor success. DARPA also
required SBIR companies with four or more past awards to update their data in the
Commercialization Achievement Index database before DARPA would analyze any new
SBIR proposals from those companies. The DARPA SBIR Program Manager stated that
the agency hired a support contractor to verify information in the Company
Commercialization Report database and to summarize and document SBIR success
stories.

SBIR Reporting Through DoD Procurement Databases
DoD internally reports SBIR Phase II and Phase III transactions through DoD
procurement databases, such as the DD 350 database and the system that has replaced the
DD 350 database—the Federal Procurement Data System-Next Generation. However,
only the Navy uses the DD 350 database to measure SBIR commercialization successes
as an internal metric. Table 1 shows the contract award obligations for FYs 2005 and
2006 as reported in the DoD procurement systems. Based on the DD 350s, the Navy
awarded the most SBIR Phase III-coded prime contracts in the contract reporting
systems. The difference between the amounts in the table below and those that were self-
reported shows the need for officials to enter accurate and timely Phase III contracting
actions.

                   Table 1. FYs 2005 and 2006 Reported Phase III
                      SBIR DD 350 Contract Award Obligations
                                    (in millions)
          DoD Component                   FY 2005                FY 2006
              Army                           $69.4                $40.0
              Navy                           330.0                325.4
             Air Force                        52.7                 74.7
             DARPA                             1.5                  1.9

 Source: DoD Personnel and Procurement Statistics, http://siadapp.dmdc.osd.mil


                                                  8
SBIR Commercialization Methods and Practices
The DoD SBIR Program Manager attributes the Navy’s reported higher
commercialization rates to institutional design, supplemental funding, and internal
program champions. These attributed characteristics differentiate the Navy from the
Army, Air Force, and DARPA.

Institutional Design
Because personnel in Navy acquisition program offices manage the Navy’s SBIR
program, they have greater ability to oversee SBIR-developed technologies. In contrast,
the Army and the Air Force allow their laboratories to manage SBIR projects with
significantly less involvement from the acquisition community.

One Air Force SBIR Program Manager believed that the Air Force has an organizational
disconnect because its laboratory technical directorates manage the SBIR program with
limited involvement from Air Force product centers. An Air Force laboratory manager
elaborated, stating that the difference between the Navy and the Air Force was that
Air Force laboratories write SBIR topics based on early research and development.

The National Research Council and Rand reports note that the Navy writes SBIR topics
that are closely aligned with the needs of the acquisition community for easier transition
of technology projects. As a result, Navy topics are less risky and they transition to
commercialization more easily than topics the Air Force generates. The DoD SBIR
Program Manager noted in a 2007 SBIR symposium that the Navy tries to ensure that
SBIR topics comply with April 2000 guidance from the Under Secretary of Defense for
Acquisition, Technology, and Logistics. The guidance states that 50 percent of topics
should have the support of the acquisition community. The Navy 2007 SBIR symposium
also noted that buy-in from the acquisition community reduces the risk associated with
doing basic research. The Navy’s practice also meets the intent of a May 6, 1998, Navy
memorandum, which states that SBIR topics must be significant to acquisition programs.
The Navy memorandum and Navy Instruction 4380.7B both demonstrate that the Navy
emphasized commercialization through written policies.

Two recent reports support the commercialization success resulting from the Navy’s
institutional design.

   The National Research Council report of a symposium, “SBIR and the Phase III
    Challenge of Commercialization,” 2007, discussed the challenge of SBIR Phase III
    transitioning and the Navy’s emphasis on Phase III. The report notes that the Navy’s
    acquisition community (instead of Navy laboratories) manages both SBIR award
    funding and Phase III transition planning. The National Research Council found that
    the majority of Air Force SBIR topics relate to technology and lower level research,
    whereas the Navy focused more on development, which expedited the transition to
    commercialization. The National Research Council report notes that during FY 2003,
    the Navy funded 84 percent of SBIR using money budgeted for testing, acquisitions,
    and upgrades of fielded systems.



                                            9
   The RAND Report No. DB-490-OSD, “Evaluation and Recommendations for
    Improvement of the Department of Defense Small Business Innovation Research
    (SBIR) Program,” 2006, stated that the Air Force and Army generated a majority of
    their topics in laboratories, whereas the Navy generated a majority of its topics
    through the acquisition program offices. The report noted that 60 percent of overall
    SBIR contract funds are devoted toward early-stage basic and applied research. The
    report advocated DoD funding of primarily later stage research and development to
    better translate projects into marketable products. The report also noted that, with the
    exception of the Navy, individual DoD SBIR programs are managed in a manner that
    may be too lean due to inadequate administrative support funding.

On August 20, 2008, the Navy released a “Report on the Navy SBIR Program: Best
Practices, Roadblocks and Recommendations for Technology Transition.” The Navy
stated that the report will serve as key guidance for continuous SBIR program
improvement. The report stated that the decentralized Navy program management
structure through Program Executive Offices was the key to the Navy’s SBIR success.
The report recommended SBIR process improvements, including a Phase III metric
collection strategy as a best practice.

The Army SBIR Program Manager stated that the Navy is managing its SBIR program as
more of a procurement program than a research and development program, even though
DoD criteria state that the SBIR program will solicit for research and development and
not procurement. However, the Army SBIR Program Manager agreed that the Army
acquisition community needs to be more involved in the SBIR process.

The DARPA Strategic Plan states that, unlike the Military Departments, which may focus
more on urgent needs and requirements, DARPA looks for radical innovations that may
take years to prove feasible. Since DARPA does not have laboratories or facilities, once
DARPA determines a SBIR topic is viable, the topic enters into Phase I, and DARPA
issues a solicitation to conduct experimental or theoretical research. The DARPA SBIR
Program Manager stated that upon completion of Phase I, for those programs that
continue into Phase II, DARPA transfers the program to one of the Military Departments
for development.

Military Department-Generated Supplemental SBIR Program
Funding
The DoD SBIR Program Manager stated that the Navy allocates substantially more funds
for SBIR administrative support than other programs. For example, Naval Air Systems
Command applies approximately 0.15 percent of its research, development, test, and
evaluation (RDT&E) extramural budget to the administration of the SBIR program.
Navy officials stated that the Navy laboratories obtain their administrative funds from the
Navy Working Capital Fund, which accounts for 70 percent of all of the Navy’s
administrative funds; they added that, in contrast, the other Services use a direct
administrative line of accounting, which does not require the extra funds needed when
using a working capital fund. In contrast, Air Force SBIR Instruction 61-101 requires the
Air Force to apply 0.01 percent of its RDT&E extramural budget for administrative


                                             10
program costs for the SBIR and Small Business Technology Transfer (STTR) programs.
This amounted to approximately $1.3 million in FY 2006. Table 2 illustrates the
differences between the FY 2006 Army, Navy, and Air Force administration funding
amounts relative to similar SBIR budget amounts.

            Table 2. Army, Navy and Air Force Comparison of FY 2006
                    Administrative Budgets Allocated for SBIR
                                   (in millions)
                       Approximate            Approximate     Percent of the
                      SBIR Budget for        Administrative    Extramural
       Service        Small Businesses      Amount Allocated     RDT&E
        Army               $243.4                 $ 1.2            0.01
        Navy                309.7                  18.6            0.15
      Air Force             313.0                   1.3            0.01

DoD SBIR officials stated that one of the challenges is finding enough resources to
support the program. On February 6, 2007, the DoD requested that Congress include
SBIR administrative funding in the FY 2008 National Defense Authorization Bill. DoD
proposed allowing all Federal agencies to apply up to 3 percent of their SBIR and STTR
program direct funds toward administrative costs. The proposal stated that Federal
agencies cannot currently use SBIR program funds for administrative costs, but have to
use their own mission funds. The DoD noted that use of the 3 percent application would
allow the military Services and Defense agencies to fund a portion of their own cost of
doing business, free valuable resources to meet mission objectives, and allow for more
effective SBIR program management. DoD also believed the allocation would allow
DoD to maintain a more robust database to track SBIR successes and SBIR Phase III
commercialization efforts.

An Army laboratory official stated that the process to generate topics is very labor
intensive, and funding is inadequate to support the process. The Deputy Assistant
Secretary of the Army (Research and Technology) noted in a September 21, 2006,
memorandum that “Reducing the number of topics will also serve somewhat to relieve a
heavily burdened field workforce that evaluated approximately 3,800 Phase I and
Phase II SBIR proposals last year.” The 2006 RAND study expressed concern about
insufficient administrative funding for the SBIR program because DoD is not allowed to
use SBIR funding to administer the program.

SBIR Champions
The Navy uses a system of internal champions to push the use and commercialization of
its SBIR projects. Navy Instruction 4380.7B delegates SBIR managerial responsibilities
to acquisition programs and requires each Navy Program Executive Office to designate a
SBIR Technology Manager responsible for advocating transition. DARPA systems
offices seek solutions to military problems resulting in end items for military inventory.
The DARPA SBIR Program Manager stated that the agency has transferred
approximately half of its SBIR projects to programs of record for the Military
Departments. Conversely, Air Force SBIR management officials stated that most Air


                                            11
Force acquisition offices consider the SBIR program a burden and would rather use the
SBIR funds for their more standard research and development projects. However, Air
Force SBIR officials also asserted they are making efforts through Commercialization
Pilot Program funding to establish “transition agents” to assist acquisition office
management on some SBIR projects.

Potential Underreporting of SBIR Successes
The Army, Navy, Air Force, and DARPA did not use a consistent approach to initiate,
record, and report Phase III contracting actions. These inconsistent approaches may have
led to the underreporting of SBIR successes. Underreported SBIR successes may affect
future congressional decisions to reauthorize the Federal SBIR program and diminish the
role that small businesses play in early-stage research and development with DoD
activities. SBIR commercialization data may not be visible to decision makers because
SBIR companies do not update the Company Commercialization Report database. Until
DoD makes a concerted effort to ensure consistency and completeness in DoD SBIR
contract data reporting, DoD cannot ensure decision makers will know about Phase III
contract awards and commercial successes. If DoD mandates consistent reporting of
Phase III obligated amounts using the DD 350 form, DoD will have an internal metric for
measuring contract awards that transition into Phase III, including the percentage of
Phase II awards that obtain some Phase III commercialization and the average
commercialization amount.

Comments on the Finding
Responding for the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics (OUSD), the Director, Office of Small Business Programs did
not specifically agree or disagree with the finding, but did comment on several topics
discussed in the finding. The Assistant Secretary of the Navy (Research, Development,
and Acquisition) did not specifically agree or disagree with the finding but did comment
on one aspect of the finding. The Director, DARPA generally disagreed with the finding.
See Appendix C for a summary of client comments provided and our response.

Recommendations, Client Comments, and Our
Response
Revised Recommendation
As a result of client comments, we revised the recommendation in the final report to
remove specific reference to “DoD Instruction” and replaced it with “DoD Directive or
Instruction.”

A. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics issue a DoD Directive or Instruction to:

   1. Mandate adherence to a consistent methodology, similar to the Navy’s
current practice, for identifying and reporting on Small Business Innovation
Research projects transitioning to Phase III commercialization.


                                          12
OUSD Comments
The OUSD partially agreed with a draft report recommendation to issue a DoD
Instruction to mandate adherence to a consistent methodology, similar to the Navy’s
current practice, for identifying and reporting on SBIR project transitioning to Phase III
commercialization. The OUSD stated that it has initially developed a DoD Directive
governing the SBIR program and plans to advance it through the coordination and
approval process to issue by December 2009. The OUSD stated that the Directive will
address, as appropriate, direct Federal Phase III contracts as an available tool to advance
SBIR technologies and describe the purpose and use of the SBIR Company
Commercialization Report database. The OUSD noted that changes to both acquisition
and procurement regulations as well as educational materials for use at the Defense
Acquisition University are also being considered to provide clearer SBIR guidance to the
acquisition and contracting communities.

The OUSD noted that SBIR Phase III Federal prime contracts are only one type of
Phase III “commercialization” activity and that it considers the SBIR Company
Commercialization Report database as the better source of data to systematically identify
and track SBIR commercialization. The OUSD also noted that SBIR program
solicitations have required commercialization data collection requirements since 2000
and that such data has been used in SBIR source selections and program evaluations.

OUSD noted that the Navy has historically awarded the greatest number of Phase III
contracts with the greatest total award value. The OUSD noted that the Navy Phase III
SBIR contracting was noteworthy because it reflected a strong institutional commitment
to utilize SBIR to address Navy technology needs and that other DoD Components have
used Navy Phase III contract vehicles to continue technology development with firms
they have funded in prior SBIR phases.

Our Response
The OUSD comments were partially responsive to the intent of the draft report
recommendation. We view the OUSD plan to develop DoD-wide formal SBIR program
guidance by December 2009 as a positive step. We agree that SBIR Phase III Federal
prime contracts are only one type of potential “commercialization” outcome. We also
agree with the OUSD description of the Navy SBIR methodology as noteworthy and
reflecting a strong institutional commitment to utilize SBIR to address technology needs.

The proposed DoD SBIR Directive should include specific procedures addressing our
recommendations. A cursory description of the database’s purpose is inadequate. A
database is not equivalent to having a specific written methodology for managing
commercialization success. All DoD Components need to adhere to a single unified
methodology, internal to DoD, which advocates commercialization in meeting DoD’s
needs and the intent of the SBIR program.

The DoD’s Company Commercialization Report database and the Federal procurement
databases can complement each other in achieving SBIR program goals. The DFARS
contract reporting requirement is not yet formalized in DoD SBIR-related criteria. The


                                            13
Army, Navy, and Air Force have the largest DoD SBIR programs, yet only the Navy
showed a significantly higher amount of Phase III awards, shown in the DD 350
database. The Navy’s managerial emphasis on reporting of commercialization in
Phase III as a quantitative metric should be extended in a similar manner, DoD-wide.

We do not believe that the database as presently constituted is necessarily the best source
for SBIR commercialization data generally or for Phase III contract data specifically.
Although a critical part of the DoD data-gathering process, the SBIR Company
Commercialization Report database is not a direct DoD internal measure of SBIR
performance. Company self-reported SBIR related sales and investments helps the DoD
measure how businesses are benefiting from SBIR. Federal procurement databases (as
used by the Navy) are a better indicator of successful managerial decisions that translate
SBIR research and developments to meet DoD needs. In contrast, the SBIR Company
Commercialization Report database does not directly measure SBIR acquisition decision
acumen but rather concentrates on measures such as company sales and investment
performance. The Navy initiative relates internal efforts to focus on the Phase III
contract aspects of SBIR. Phase III contracts exist in the first place because of what the
DoD decides to accomplish. Therefore, an internally measurable metric is needed. We
request further comment from the OUSD to the revised Recommendation A.1.

DARPA Comments
Although not required to comment, the Director, DARPA agreed with the general
recommendation to develop a DoD Instruction but disagreed with mandating a policy
similar to the Navy’s current practice for identifying and reporting SBIR projects
transitioning to Phase III. DARPA stated that a mechanism exists within the Federal
Procurement Data System-Next Generation to capture this information and that the
Office of Defense Procurement, Acquisition Policy and Strategic Sourcing should
identify and report Phase III actions in a consistent manner.

Our Response
We agree with DARPA comments that a mechanism exists within the Federal
Procurement Data System-Next Generation to capture SBIR Phase III data and that the
Office of Defense Procurement, Acquisition Policy and Strategic Sourcing should
develop policies to identify and report Phase III actions. However, the DoD Office of
Small Business Programs should maintain lead responsibility to track and measure
Phase III activity at the Component level and focus on making transition a priority similar
to the Navy process of focusing on Phase III metrics as a SBIR success factor.

   2. Establish a consistent process for Military Departments to provide
supplemental funding for the administration of the Small Business Innovation
Research program.

OUSD Comments
The OUSD stated partial agreement with the recommendation. OUSD noted that the
DoD requested in February 2007, through the Administration’s draft National Defense
Authorization Act for FY 2008, authority to use up to 3 percent of the SBIR set-aside


                                            14
budget to fund administrative expenses and provide a uniform mechanism to provide
each DoD Component with funds proportional to the size of each program to fund key
functions such as contracting, technical oversight, and commercialization support.
Absent such authority, the OUSD planned to include in the proposed DoD Directive the
requirement for participating Components to provide sufficient funding to effectively
administer the SBIR program. However, the OUSD stated that it did not plan to mandate
a methodology, such as an additional assessment above the SBIR assessment, or an
independently programmed funding line. The OUSD noted that it should be left to each
DoD Component to determine the most appropriate approach.

Our Response
Even though the OUSD termed its response a partial agreement, we consider the
comments to be fully responsive to the intent of the recommendation. We commend the
OUSD for submitting the February 2007 legislative proposal. We believe that the
proposed SBIR program DoD Directive if implemented, will establish proper controls to
ensure that each DoD Component is funded proportional to the size of that Components’
SBIR program.

    3. Formally establish Small Business Innovation Research acquisition internal
champions within acquisition program offices to generate topics, act as source
selection proponents, and act as liaisons between laboratories and the acquisition
community.

OUSD Comments
The OUSD stated agreement with the recommendation and noted that a requirement for
acquisition liaisons dated back to an August 10, 1999, Under Secretary of Defense for
Acquisition, Technology, and Logistics policy memorandum requiring each major
acquisition program to designate SBIR liaisons to be posted on a Web site by the DoD
SBIR program office. The OUSD noted that the policy would be restated in the proposed
December 2009 SBIR Program Directive and highlighted as a best practice in the
Defense Acquisition Guidebook.

DARPA Comments
Although not required to comment, the Director, DARPA stated that if the
recommendation was implemented, DARPA would utilize the acquisition liaisons as
appropriate.

Our Response
OUSD comments were partially responsive to the intent of the recommendation as the
comments appear to agree to the concept of a “SBIR liaison” rather than a “SBIR internal
champion.” The purpose of a SBIR liaison, as based on the August 1999 memorandum,
was to help the acquisition community identify useful SBIR technologies. Conversely, as
noted in our report, we view a SBIR internal champion as an advocate for the SBIR
program itself, which actively expands on the role of a liaison to include functions such
as SBIR topic generation, securing SBIR funding, and acting as a source selection



                                           15
proponent. Thus, we request further comment from the OUSD regarding
Recommendation A.3.

   4. Require Small Business Innovation Research contracting personnel to record
Phase III contracting actions in the DoD and Federal procurement databases in
accordance with Defense Federal Acquisition Regulation Supplement 204.670,
“Contract Action Reporting Requirements,” and provide summary reports of such
Phase III contracting actions to the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

OUSD Comments
The OUSD agreed with the recommendation and noted that contracting personnel should
properly code contracts as SBIR Phase III when the work performed under such contracts
substantively derives from, extends, or logically concludes work begun under a prior
SBIR effort. The OUSD noted that the Federal Procurement Data System-Next
Generation currently allows contracting officials to identify prime contracts as SBIR
Phase I, Phase II, or Phase III. OUSD noted that these SBIR codes are not currently
required in the completion of a contract entry and agreed there may be some SBIR
underreporting. The OUSD noted that it planned to advance a proposal to make SBIR
codes required fields. The OUSD also noted that Phase III contract actions and other
SBIR contract activity employing non-SBIR funding, to include Phase II extensions and
enhancements, would continue to be a part of annual program data collection.

Our Response
OUSD comments were not fully responsive to the intent of the recommendation as the
comments do not include an implementation date for the OUSD proposal to make SBIR
codes required fields in the Federal Procurement Data System-Next Generation. In
addition, the Federal Procurement Data System-Next Generation User’s Manual states
that “Executive departments and agencies are responsible for collecting and reporting
procurement data to FPDS-NG, as required by the FAR [Federal Acquisition
Regulation],” and that procurement activities are to report the SBIR codes when
awarding the contract. Thus, we request further comment from the OUSD regarding
Recommendation A.4.

DARPA Comments
Although not required to comment, the Director, DARPA disagreed with the
recommendation if the reporting burden was placed on the DoD Component SBIR offices
to carry out the requirement. DARPA stated that responsibility for the requirement
belonged to the Office for Defense Procurement, Acquisition Policy and Strategic
Sourcing.

Our Response
We agree with DARPA comments to the extent that the Office of Defense Procurement,
Acquisition Policy and Strategic Sourcing should be involved. The intent of the
recommendation is to assure that SBIR contracting officers properly enter SBIR Phase III
data into the Federal Procurement Data System-Next Generation. All DoD contracting


                                          16
office personnel are responsible for carrying out this requirement as a standard procedure
for all procurement contracting actions. The DARPA response that DoD SBIR
Component offices should not be burdened with the requirement indicates a lack of
understanding of management processes for SBIR contract reporting.




                                            17
Finding B. Small Business Innovation
Research Phase II Contract Management
Of the 34 DoD SBIR contracts (valued at $40.8 million) we reviewed, 27 contracts
(valued at $35.2 million) extended Phase II work by an average of 24 months beyond the
24-month period of performance recommended in the SBA Policy Directive.
Additionally, 21 of the 34 contracts exceeded recommended funding by a total of
$16.4 million. These extensions occurred because DoD did not have a formal instruction
implementing the SBA Policy Directive and Army, Navy, Air Force, and DARPA SBIR
program offices did not consistently follow the SBA procedures regulating SBIR periods
of performance and award amounts. As a result, SBIR projects are not progressing
through appropriate phases to achieve two of the four statutory goals of the SBIR
program: increasing commercialization through Phase III awards and meeting DoD
needs with small business contracting. In particular, small businesses may have lost
opportunities for larger DoD acquisition community Phase III awards or private sector
funding to advance successful technologies toward commercialization.

SBIR Performance Periods and Funding
The SBA Policy Directive provides all Federal agencies with a uniform, simplified SBIR
program with minimal regulatory burden. DoD has not issued any DoD Directives or
Instructions for management of the SBIR program. Rather, each of the 12 participating
DoD Components is responsible for managing its individual SBIR program tasks
including SBIR topic generation, source selections, and funding allocations.

SBIR Period of Performance Guidelines
The SBA Policy Directive states that although the SBIR period of performance is subject
to negotiation between the awardee and the issuing agency, the performance period
should not normally exceed 6 months for Phase I and 24 months for Phase II. The SBA
Policy Directive permits the period of performance to be extended, at the discretion of
Federal agencies, as appropriate to exercise options included in the original Phase I or
Phase II awards. DoD, the Air Force, and DARPA have not established policy on the
duration of Phase II SBIR contracts. Army Pamphlet 70-3, Figure 2-11, “Army SIBR
Process,” depicts 2-years for Phase II awards and Navy Instruction 4380.7B states that
Phase II awards are “typically performed” over 24 months.

SBIR Funding Amount Guidelines
The SBA Policy Directive states that “Generally, a Phase I award may not exceed
$100,000, and a Phase II award may not exceed $750,000.” The SBA Policy Directive
does not define what exceptions are allowable to deviate from the recommended funding
guidelines, but does require Federal agencies to provide written justification to SBA
when exceeding recommended funding amounts. Agencies cannot use SBIR funds for
Phase III awards.




                                           18
Modification to SBIR Phase II Contracts
Federal Acquisition Regulation 43.201(a) provides the contracting officer authority to
issue contract modifications that are within the general scope of the original contract.
The SBIR Contracting and Payment Desk Reference, 8th Edition, endorses the use of
modifications if the additional effort substantially increases the product’s
commercialization potential or enhances the capability to the user. The SBIR Contracting
and Desk Reference notes that Phase II work related to the initial Phase II contract may
be added under the statutory authority of the SBIR program. However, the SBIR
Contracting and Desk Reference does not provide guidance on transitioning projects to
Phase III.


DoD Phase II Enhancement Program
Since 2000, DoD has authorized its SBIR Components to develop Phase II enhancement
programs to encourage the rapid transition of SBIR research and development into
acquisition programs, private sector commercialization, or both. Enhancement programs
provide an opportunity for SBIR firms to attract additional non-SBIR funding for
Phase II contract work. If a Phase II SBIR awardee can secure non-SBIR funding from a
source such as a DoD acquisition program or a non-Government source, then the DoD
SBIR Component responsible for that project can match up to $500,000 in funding with
additional Phase II SBIR funds. The DoD SBIR website states that SBIR Components
may extend the Phase II contract period of performance for no more than 1-year when
using the enhancement program.

SBIR Phase II Contract Period of Performance and
Funding
Of the 34 DoD SBIR contracts we reviewed, Phase II work on 27 of the contracts was
extended an average of 24 months beyond the 24-month recommended period of
performance. Additionally, 21 of the 34 contracts reviewed exceeded recommended
funding by a total of $16.4 million. Our audit found that, of 34 Phase II contracts
reviewed, 14 of the contracts were part of the DoD Phase II enhancement program.
However, 12 of the 14 enhancement program contracts exceeded DoD’s 1-year period of
performance extension limit. Six of the 14 Phase II enhancement contracts also exceeded
the $500,000 DoD supplemental SBIR funding limit. See Appendix B for a detailed
summary of project duration and funding amounts for the Phase II contracts we reviewed
at the Army, Navy, Air Force, and DARPA.

DoD Data on Contract Periods of Performance
Data obtained from the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics indicated that 205 (30 percent) of 682 Phase II, FY 2000
projects exceeded the SBA Phase II funding guidelines as of September 30, 2006. The
Army, Navy, Air Force, and DARPA all had average award amounts exceeding the




                                          19
$750,000 guideline. In particular, 39 percent of Air Force SBIR projects had cumulative
award amounts exceeding the guideline, with an average award amount of $913,066.3

The DoD SBIR manager provided a summary of the Phase II FY 2000 awards, including
a detailed distribution of those awards at or above the SBA $750,000 Phase II award
guideline. The Phase II awards were made from FY 2000 through FY 2006, resulting
from FY 2000 solicitation topics, with modifications reported from FY 2002 through
FY 2006. Table 3 provides an overview of DoD Phase II contract awards derived from
the FY 2000 solicitation, relative to each DoD Component.
        Table 3. DoD Phase II Contract Awards Derived From the FY 2000
                               SBIR Solicitation
                                       Awards at     Awards Above $750,000
              Number                    or Below         Award Guideline
DoD SBIR          of        Total       $750,000     Phase II    Non-Phase II
Component Awards          Awards       Guideline Enhancement Enhancement
 Air Force       222   $202,700,650        135          44             43
  Army           158    127,911,462        118          35              5
  Navy           119      92,911,350        87           4             28
 DARPA            51      42,531,772        37           8              6
  MDA             79      71,782,632        48           2             29
  DTRA             6       4,472,488         6           0              0
   CBD              9      6,726,989         8           1              0
   OSD            28      20,044,508        28           0              0
 SOCOM              7      3,117,819         7           0              0
  NGA              3       1,496,847         3           0              0
Total DoD        682   $573,696,517        477          94            111
Source: DoD SBIR Program Manager

Acronyms:
CBD      Chemical Biological Defense
DTRA      Defense Threat Reduction Agency
DARPA Defense Advanced Research Projects Agency
MDA      Missile Defense Agency
NGA      National Geospatial-Intelligence Agency
OSD     Office of the Secretary of Defense
SOCOM Special Operations Command


Army
We reviewed 13 Army Phase II awards valued at $12.2 million. Contracting officers
extended the period of performance on 10 (77 percent) of those 13 contracts. The
average extension for additional Phase II work was 19 months more than the
recommended 24-month guideline. The Army also exceeded recommended funding for
6 of the 13 contracts by a total of $2.8 million. Army officials agreed that the Army


3
    The total FY 2000 Phase II award amounts divided by the total number of awards.


                                                     20
tends to award Phase II contract modifications rather than issue Phase III contracts. For
example, contracting officials at the Tank Automotive Research, Development, and
Engineering Center, stated that tasks for additional work for Phase II contract DAAE07-
01-C-L018 were within the scope of the initial Phase II project tasks. As another
example, contracting officials at the Communications and Electronics Research and
Development Center, awarded Phase II contract DAAB07-01-C-J403 in December 2000.
The contract included 12 modifications, including administrative changes.
Modifications 6 and 12 included additional statements of work and applied additional
research and development funds from SBIR and from private sector financial sources.
Modification 12 also extended the period of performance through October 2006. The
70-month period of performance and the use of outside capital (non-DoD) could have
warranted the issuance of a Phase III contract as early as July 2004, even though the
statements of work for some of the modifications were within the scope of the original
proposal. Both Army contracts noted above used the DoD Phase II enhancement
program to extend the period of performance. However, both contracts exceeded the
DoD 1-year period of performance extension limit.

Navy
We reviewed nine Navy Phase II awards valued at $10.3 million. Contracting officers
extended the period of performance on five (56 percent) of those nine contracts. The
average extension for additional Phase II work was 21 months more than the
recommended 24-month guideline. The Navy also exceeded recommended funding for
six of the nine contracts by a total of $4.3 million.

For example, Navy contracting officials awarded Phase II contract N68335-02-C-0007 in
January 2002. The contract included six modifications with a completion date of
February 2007, which extended the period for performance a total of 37 months beyond
the recommended 24-month guideline. The contract included SBIR funding of
approximately $741,000 more than the recommended $750,000 SBIR funding guideline.
The Navy contract used the DoD Phase II enhancement program to extend funding and
the period of performance. However, the contract exceeded the DoD 1-year period of
performance extension limit and $500,000 funding enhancement limit. On September 14,
2004, the Navy issued Phase III delivery order contract N68335-04-D-0018 to the SBIR
contractor. As a result, the Navy allowed the contractor to perform Phase II and Phase III
tasks concurrently under separate contracting vehicles.

Air Force
We reviewed seven Air Force Phase II contracts valued at $13.3 million. Contracting
officers extended the period of performance on all seven contracts. The average
extension for additional Phase II work was 33 months more than the recommended
24-month guideline. All seven contracts exceeded the guideline by 15 months or more.
The Air Force also exceeded recommended funding for six of the seven contracts by a
total of $8.1 million. The Phase II modifications included $5.4 million in non-SBIR
funding, out of total contract funding of $13.3 million.




                                           21
The Air Force awarded Phase II contract modifications to extend SBIR performance
periods rather than issuing a Phase III contract with non-SBIR funding. Project managers
believed that they could maintain better control over SBIR projects if the projects
remained at the Air Force Research Laboratory in Phase II instead of transitioning to a
Phase III contract administered elsewhere. Air Force SBIR program officials stated that
the Air Force tends to add additional Phase II work through a “Phase II enhancement”
program because SBIR funds cannot be applied to a Phase III contract. Contracting
officials at the Air Force Research Laboratory stated that the Phase II modifications for
additional tasks were justified and within the scope of the original Phase II projects. The
Air Force SIBR manager noted that the SBA Policy Directive did not prohibit extending
Phase II work. However, they acknowledged that the work could have been awarded
under Phase III contracts and that the cost of analyzing and processing separately
proposed Phase II modifications would be the same as analyzing and processing a sole-
source Phase III contract.

As one example, the Air Force awarded SBIR Phase II contract F33615-01-C-1863 on
June 12, 2001. The contract included nine modifications for additional work. Eight of
those modifications added $1.4 million in non-SBIR funding to the contract. The last
Phase II modification extended the contract period of performance through January 2009.
The Air Force contract used the DoD Phase II enhancement program to extend funding
and the period of performance. However, the contract exceeded the DoD 1-year period
of performance extension limit and the DoD $500,000 funding enhancement limit. We
believe that the Air Force should have issued one or more Phase III contracts as early as
2003.

We performed a technical analysis of contract F33615-01-C-1863 and found that the
Phase I and Phase II proposals did not correspond to the core SBIR topic objective, and
the justification for advancing to Phase II was inadequate. We also found that the non-
SBIR-funded Phase II modifications did not logically flow from the original topic, even
though the additional work was within the scope of the Phase II statement of work. The
original topic for the SBIR project called for a low-cost, commercially available
component. However, the SBIR contractor proposed a higher cost component for
Phase II. Also, the SBIR project did not meet the core objectives of the original SBIR
topic, one of which was to achieve cost reduction. The Air Force’s use of a Phase II
contractor proposal in lieu of a Phase II statement of work was insufficient to protect the
Government’s interests.

DARPA
We reviewed five DARPA Phase II awards valued at $5 million. Contracting officers
extended the period of performance on all five contracts. The average extension for
additional Phase II work was 22 months more than the recommended 24-month
guideline. DARPA also exceeded recommended funding for three of the five contracts
by a total of $1.3 million. For example, Phase II SBIR contract DAAH01-01-C-R156,
awarded April 2001, included eight modifications that cumulatively extended the period
of performance through May 2006, 37 months beyond the recommended 24-month




                                            22
guideline. It also used $649,606 more than the recommended $750,000 SBIR funding
guideline.

SBIR Program Controls
The DoD, Army, Navy, Air Force, and DARPA SBIR program offices did not have
consistent procedures regulating SBIR periods of performance and award amounts.
Further, DoD, the Army, the Air Force, and DARPA did not have any formal guidance to
address contracts exceeding SBA recommended guidelines on Phase II period of
performance and funding amounts.

DoD SBIR Controls
DoD Instruction 5134.04, “Director of Small and Disadvantaged Business Utilization,”
September 27, 2005, defines the responsibilities of the DoD SBIR Program Manager.4
The DoD SBIR Program Manager requires that DoD Components gather and report
justifications to the DoD SBIR program office for consolidation and reporting to SBA.
The DoD SBIR program office developed a standardized list of 10 potential justifications
for exceeding funding guidelines. However, none of those potential justifications to
exceed funding guidelines are included in official DoD policy. SBA SBIR officials
stated that they did not consider the DoD SBIR program office standardized checklist, in
and of itself, to be sufficient justification to support deviations from recommended SBA
funding guidelines. We concluded that the DoD SBIR program office had no internal
controls over the preparation or validation of additional funding justifications or the
accuracy of the data provided to SBA.

The DoD SBIR program office did not issue any specific written standard operating
procedures to provide DoD Components with specific limits to phase duration or award
amounts. In the absence of specific DoD guidance, individual SBIR managers allowed
Phase II work to proceed beyond the SBA recommended period of performance guideline
to maintain control over SBIR projects rather than transitioning projects to a Phase III
contract outside their control. Without written guidance, decisions to advance a project
and establish periods of performance were subjective, thereby limiting DoD’s ability to
achieve and measure the success of its SBIR program in meeting DoD requirements.

The DoD SBIR Program Manager agreed that much of the Phase II work could have
qualified as Phase III using non-SBIR funding and that many of the Phase II projects
included tasks that could have been awarded on Phase III contracts. Further, the DoD
SBIR Program Manager agreed that DoD should have overall guidance regulating
periods of performance in accordance with SBA guidelines.




4
The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics, Office of Small
Business Programs acts as the DoD SBIR Program Manager. Public Law 109-163, “National Defense
Authorization Act for Fiscal Year 2006,” changed the Office of Small and Disadvantaged Business
Utilization of the DoD to the Office of Small Business Programs of the DoD.


                                                  23
Military Department SBIR Controls
The Army and Air Force did not have formalized internal controls to prevent contracts
from exceeding the SBA-recommended Phase II period of performance and funding
guidelines. For example, Air Force Materiel Command Instruction 61-101 does not
identify specific procedures for the day-to-day operation of the program, including a
description of responsibilities. The instruction also does not discuss the SBA funding and
period of performance guidelines, or discuss moving from Phase II to commercialization.

The Navy implemented written criteria promoting the transition of SBIR projects. The
Navy SBIR guidance emphasizes transitioning, achieving, and reporting Phase III
commercialization. Secretary of the Navy Instruction 4380.7B mandates SBA funding
and period of performance guidelines. In addition, the Instruction emphasizes awarding
Phase III SBIR contracts to foster effective transition planning to implement SBIR-
developed products into Navy acquisition programs. The Navy SBIR Program Manager
stated that the Navy monitors SBIR contracts but believed that SBA guidance allows for
increased funding levels above the guidelines. None of the four Office of Naval
Research projects we reviewed exceeded the 24-month period of performance guideline
for Phase II. However, contracting officers at the Naval Air Systems Command did not
follow Navy criteria on period of performance for five contracts. The Navy SBIR
Program Manager stated that the Naval Air Systems Command SBIR program office
approved the contract extensions and believed neither SBA, DoD, nor Navy required
reporting of time extensions. We believe the Navy should improve its monitoring of
SBIR contracts to ensure contracting and program officials comply with the guidance on
periods of performance and funding.

Defense Advanced Research Projects Agency SIBR Controls
DARPA had no formalized internal controls to prevent exceeding SBA-recommended
Phase II period of performance and funding guidelines.

Achieving SBIR Commercialization
SBIR projects were not progressing through appropriate phases to achieve two of the four
statutory purposes of the SBIR program: increasing commercialization through Phase III
awards and meeting DoD needs with small business contracting. In particular, small
businesses may have lost opportunities for either larger DoD acquisition community
Phase III contracting, or private sector funding to advance successful technologies toward
commercialization.

Acquisition Process
One of the primary statutory goals of the SBIR program is to increase private sector
commercialization of innovations derived from research and development. The SBIR
phases are similar to the Defense Acquisition Management Framework phases discussed
in DoD Instruction 5000.2, “The Defense Acquisition System,” May 12, 2003, for
acquisition programs. DoD uses the Defense Acquisition System to provide effective,
affordable, and timely systems to users. Likewise, each SBIR phase is intended to
transition projects from determination of project feasibility to transitioning technologies


                                            24
to the warfighter. SBIR Phase III is the final phase, intended to transition to
commercialization, allowing small businesses to transform DoD requirements into viable
products for DoD and the private sector.

DoD Requirements
To support SBIR projects in meeting DoD requirements beyond Phase II, DoD must use
non-SBIR funds. Without mission funding and support, SBIR projects cannot transition
to Phase III. If SBIR projects languish in Phase II, then DoD will not achieve its goal of
accelerating transition of SBIR-funded technologies into systems supporting the
warfighter.

Small Business Needs
The practice of extending the time a project remains in Phase II may cause SBIR
awardees to lose opportunities for additional private-sector capital funding support. If
projects do not advance to Phase III in a timely manner, the SBIR program is not
assisting small businesses. A Phase III award is a visible measure of success for the
project. It demonstrates to the private sector that DoD is supporting a successful
initiative by committing mission funds to the program. Moreover, projects which could
have advanced to Phase III may be discontinued in Phase II due to lack of funding
support from program offices.

Comments to the Finding
Responding for the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, the Director, DoD SBIR program did not specifically agree or
disagree with the finding, but did comment on several topics discussed in the finding.
The Assistant Secretary of the Navy (Research, Development, and Acquisition) did not
specifically agree or disagree with the finding but did comment on several topics
discussed in the finding. The Director, DARPA generally disagreed with the finding. See
Appendix C for a summary of comments provided and our response.

Recommendations, Client Comments, and Our
Response
Revised Recommendation
As a result of client comments, we revised the recommendation in the final report to
remove specific reference to “DoD Instruction” and replaced it with “DoD Directive or
Instruction” and changed language on length limits and cumulative award amounts on
contracts to amounts called for in the Small Business Administration’s Policy Directive
or approved legislation.

B.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics include within the Directive or Instruction as
recommended in Finding A:

    a. Limit the length and cumulative award amounts of Phase II contracts to
amounts called for in the Small Business Administration’s “Small Business


                                            25
Innovation Research Program Policy Directive,” or otherwise approved by law
unless the DoD Component Small Business Innovation Research program manager
approves a 1-year Phase II enhancement extension, obligated with Small Business
Innovation Research funds.

OUSD Comments
The OUSD disagreed with a draft report recommendation that the proposed SBIR DoD
Instruction limit the length and cumulative award amounts of Phase II contracts to
24 months and $750,000, respectively, to comply with the intent of the SBA Policy
Directive, unless the DoD Component SBIR Program Manager approved a 1-year
extension, obligated with SBIR funds. The OUSD noted that treating the SBIR Phase II
contract guideline as a cap was not in consonance with the intent of the SBIR program
and would dramatically limit the effectiveness of SBIR the program performance. The
OUSD also believed that the recommendation would restrict SBIR contracting officer
flexibility relative to how non-SBIR funds are employed. The OUSD noted that DoD
reports to SBA all awards in excess of the prescribed SBA guidelines consistent with the
SBA Policy Directive and that the SBA has never objected to the DoD-reported
deviations.

The OUSD proposed that our draft report recommendation be reworded to remove
specific reference to “24 months” and “$750,000” as guidelines since the existing
standards were likely to change either through a current congressional reauthorization of
the SBIR program or through current efforts of the SBA. The OUSD also proposed that
we remove reference to the 1-year extension to allow deployment of SBIR resources.
The OUSD noted that the SBA SBIR Program Directive explicitly permits awarding
agencies to exceed award values where appropriate for a particular project. The OUSD
believed that neither basic nor modified award amounts should be restricted to SBA
guideline levels. The OUSD noted that it planned to incorporate program award
guidelines into its proposed SBIR program DoD Directive to establish normative
behavior but allow program flexibility through guideline deviations, and to require strict
annual reporting requirements as described in the SBA Program Directive.

Navy Comments
Although not required to comment on the draft report recommendation, the Assistant
Secretary of the Navy (Research, Development, and Acquisition) disagreed, noting the
recommendation should be stricken. The Navy believed that placing arbitrary limits on
SBIR research, either with funding or time limitations, might limit program effectiveness
and not be in the Government’s best interest. The Assistant Secretary also noted the
importance of SBIR program flexibility to provide contract extensions with either SBIR
or non-SBIR funds, or both, to keep the technology moving forward in support of the
commercialization goal.

DARPA Comments
Although not required to comment, the Director, DARPA disagreed with the draft report
recommendation noting that agencies should be allowed flexibility to exceed the SBA
Policy Directive guidelines when appropriate and that reporting of instances when the


                                            26
guidelines are exceeded was acceptable. DARPA stated that adding funding to existing
Phase II projects and extending the period of performance is warranted under the Phase II
enhancement rules and is necessary to bring the technology to a maturity level so that it
can be transitioned or commercialized.

Our Response
OUSD, Navy, and DARPA comments were partially responsive to the intent of the draft
report recommendation. Based on the OUSD and DARPA comments, we revised the
recommendation in the final report to remove specific reference to “24 months” and
“$750,000” to allow for the possibility of adopting presently proposed SBA increases to
the time and funding limits. We also revised language regarding the 1-year extension to
note that the extension was to allow for the 1-year Phase II enhancement such as those
presently authorized by the DoD SBIR program. Our audit found no indication that
treating the SBIR Phase II contract SBA guideline as a normative cap would in any way
limit the effectiveness of SBIR program performance.

While DoD reports to SBA those SBIR awards made in excess of the prescribed SBA
guidelines, we noted that none of 10 “check-off” justifications the DoD SBIR program
office used for exceeding SBA funding guidelines were included in official DoD policy.
In addition, SBA SBIR officials stated that they did not consider the DoD justifications in
and of themselves to be sufficient to support deviations from recommended SBA funding
guidelines. We concluded that the DoD SBIR program office had no internal controls
over the preparation or validation of additional funding justifications or the accuracy of
the data provided to SBA.

We disagree with the OUSD, the Navy, and DARPA premise that SBIR program
managers and contracting officers should have unlimited flexibility relative to how non-
SBIR funds are employed. The OUSD should not focus on implementing a policy of
unlimited deviations from SBA Phase II guidelines, but, rather focus on methods to
obtain acquisition community support and non-SBIR funding for Phase III contract
actions. This will allow DoD to maintain and uphold SBA Phase III development
guidelines by encouraging the use of non-SBIR funds to support SBIR technologies.
While we agree with the OUSD effort to include program award guidelines into the
proposed DoD-wide formal SBIR program guidance, such award guidelines must truly
make normative behavior the norm, and not enable deviations from the SBA guidance to
become the prevalent behavior. Such an open-door policy would simply exacerbate the
SBIR award and project length problems noted in the finding. As such, we believe that
the 1-year Phase II enhancement language noted in our recommendation allows enough
flexibility to allow deployment of both SBIR and non-SBIR resources in exceptional
situations and maintain SBA recommended guidelines. We request the OUSD comment
on the revised Recommendation B.1.a.

     b. Require that any additional non-Small Business Innovation Research-
funded work, not applicable to a Phase II basic contract under Small Business
Administration policy guidelines, not be funded as part of the Phase II contract.
Once the concept is proven, the acquisition community should pursue sponsorship
through Phase III contracts.


                                            27
OUSD Comments
The OUSD disagreed with the recommendation stating it implied that Phase III is only
pursued via direct Government contracts funded by acquisition activities and the
recommendation made an erroneous assumption that technologies are always ready for
direct acquisition office sponsorship at the end of Phase II. The OUSD noted that
Phase III contracts were only one form of commercialization for SBIR-funded
innovations and that attempting to force technology development and maturation would
thwart technology transition and increase costs.

The OUSD stated that the modification of existing Phase II contracts within the scope of
the base contract should fund technology development and demonstration. The OUSD
also stated that while application of non-SBIR-funded Phase III contracts can provide
better program visibility, it could also impose additional contracting office administrative
burdens or require additional work to accommodate separate contracting vehicles. The
OUSD noted that, while it planned to identify use of the Phase III contract approach as a
best practice to track program activity and encourage the direct uptake of SBIR
technology, it did not support making the approach a requirement.

Our Response
The OUSD comments were partially responsive to the intent of the recommendation.
While we agree that direct Phase III contracts are only one form of commercialization,
we disagree that the recommendation makes an erroneous assumption that SBIR
technologies are ready for direct acquisition sponsorship at the end of Phase II. Rather,
the recommendation is consistent with the SBA SBIR Policy Directive guidelines and
metrics that recognize that additional development and maturation steps can be
performed in Phase III to help DoD and small businesses achieve commercialization
goals and achieve technology transition. As noted in the finding, all too often,
Phase III-type SBIR work is performed under modifications to Phase II contracts using
non-SBIR funding. Such work deviates from the intent of the SBA Policy Directive to
progress technologies into a non-SBIR-funded Phase III environment. If SBIR projects
languish in Phase II, then DoD will not achieve its goal of accelerating transition of
SBIR-funded technologies into systems supporting the warfighter.

We applaud the OUSD statements to identify use of the Phase III contract approach as a
best practice to track program activity and encourage the direct uptake of SBIR
technology. However, such best practices should be viewed as the norm for DoD SBIR
technologies and be included in DoD-wide guidance. We disagree that use of Phase III
contracts would necessarily add additional contracting office administrative costs. As
noted in the finding, SBIR contracting personnel told us that the time and costs to analyze
and negotiate a proposed Phase II contract modification was equivalent to a separate
proposed phase III contract. We request further comment from the OUSD regarding
Recommendation B.1.b.

Navy Comments
Although not required to comment, the Assistant Secretary of the Navy agreed with the
recommendation.


                                            28
DARPA Comments
Although not required to comment, the Director, DARPA disagreed with the
recommendation stating it was within the contracting officer’s discretion whether to place
non-SBIR funding on a SBIR Phase II contract. DARPA noted that agencies may
transfer promising SBIR Phase II projects to another Federal agency as appropriate or
discontinue SBIR projects that do not show promising results.

B.2. We recommend that the Assistant Secretary of the Navy (Research,
Development, and Acquisition) establish controls to monitor compliance with
standards for periods of performance and cumulative award amounts in Secretary
of the Navy Instruction 4380.7B, “Implementation of the Department of the Navy
(DON) Small Business Innovation Research (SBIR) Program,” December 23, 2005,
and the Small Business Administration’s “Small Business Innovation Research
Program Policy Directive,” September 24, 2002.

Navy Comments
The Assistant Secretary of the Navy agreed with the recommendation.

Our Response
Navy comments were partially responsive to the intent of the recommendation. Though
agreeing with the recommendation, the Navy did not provide completion timelines
regarding establishing controls to monitor compliance with standards for periods of
performance and cumulative award amounts included in Secretary of the Navy
Instruction 4380.7B. As such, we request further comment from the Navy concerning
completion timelines for this recommendation.




                                           29
Appendix A. Scope and Methodology
We conducted this performance audit from July 2006 to October 2007; from
November 2007 through March 2008; and June 2008 in accordance with generally
accepted government auditing standards. Breaks in performance occurred because of
changes to key personnel and higher priority projects. Those standards require that we
plan and perform this audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated whether Military Departments and DARPA effectively used the SBIR
program for research and development projects that meet DoD requirements and whether
the projects developed for the SBIR program resulted in products for commercial or
military markets. We reviewed the justification for contract award and the
commercialization reporting process for Phase I and Phase II contracts at the Army,
Navy, Air Force, and DARPA. At each location visited, we interviewed SBIR program
managers to learn the processes they used to execute the SBIR program. We examined
proposals, statements of work, technical evaluations, price negotiation memoranda,
contract modifications, and other miscellaneous correspondence dated from August 1999
through September 2007.

We selected a judgmental sample of 34 high dollar value projects where Phase I contracts
progressed to Phase II, from a universe of 509 FY 2000 projects. The total Phase II
contract value of the 34 projects sampled was $40.8 million.

We reviewed eight Army projects at the U.S. Tank Automotive Research, Development,
and Engineering Center, Warren, Michigan; and five projects at the Communications and
Electronics Research and Development Center, Fort Monmouth, New Jersey. The
Phase II cumulative award amount for the 13 Army sampled projects totaled
$12.2 million, selected from a universe of 143 Army projects valued at $118.3 million.
We reviewed five Navy projects at the Naval Air Systems Command, Patuxent River,
Maryland; and four projects at the Office of Naval Research, Arlington, Virginia. The
Phase II cumulative award amount for the nine Navy sampled projects totaled
$10.3 million, selected from a universe of 115 Navy projects valued at $93.1 million. We
reviewed seven Air Force projects at the Air Force Research Laboratory, Dayton, Ohio.
The Phase II cumulative award amount for the seven Air Force sampled projects totaled
$13.3 million, selected from a universe of 208 Air Force projects valued at
$186.2 million. We also reviewed five projects at the DARPA headquarters, Arlington,
Virginia; and the U.S. Army Aviation and Missile Command, Huntsville, Alabama.
Phase II cumulative award amount for the five DARPA sampled projects totaled
$5.0 million, selected from a universe of 43 DARPA projects.




                                           30
Small Business Technology Transfer program
We did not review the Small Business Technology Transfer (STTR) program, which
funds cooperative research and development projects involving small business and DoD
nonprofit research institution partners, as the STTR program is not covered by SBIR
guidance. The exclusion of the STTR program does not affect the results of this audit.

Use of Computer-Processed Data
We used computer-processed data from the DoD SBIR Awards database to perform this
audit. Baum Romstedt Technology Research Corporation, a service support contractor
for the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, maintained the DoD SBIR Awards database and queried the database to obtain
Phase II awards data resulting from FY 2000 DoD SBIR solicitations. We did not assess
the reliability of the data from the DoD SBIR Awards database, the DD 350 database, or
the Federal Procurement Data System-Next Generation database. However, data
obtained throughout the fieldwork phase did not materially differ from the computer-
processed data obtained from those databases. Thus, nothing came to our attention
during the audit that caused us to doubt the reliability of the computer-processed data.

Use of Technical Assistance
The Technical Assessment and Data Mining Directorates of the Department of Defense,
Office of the Deputy Inspector General for Policy and Oversight provided assistance.
The Technical Assessment Directorate reviewed one SBIR project for each Military
Department and DARPA. Specifically, the Technical Assessment Directorate reviewed
statements of work, Government technical evaluations, and contractor-generated SBIR
Phase I and II final reports to ensure the scope of the work and SBIR products were in
alignment with the SBIR topic and proposal. The Data Mining Directorate searched and
analyzed the DD 350 database for FYs 2005 and 2006, and the Federal Procurement Data
System-Next Generation database for FYs 2005 and 2006 Military Department and
DARPA SBIR-related contract information.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (IG) have issued three reports discussing the
accuracy of capturing, reporting, and disclosing data on contract awards. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-07-38, “Agencies Need to Strengthen Efforts to Improve the
Completeness, Consistency, and Accuracy of Awards Data,” October 2006

GAO Report No. GAO-06-565, “Information on Awards Made by NIH and DoD in
Fiscal Years 2001 through 2004,” April 2006




                                           31
DoD IG
DoD IG Report No. D-2004-001, “Disclosure of Contractor Data for the Development of
Night Vision and Display Systems,” October 3, 2003




                                        32
Appendix B. Small Business Innovation
Research Phase II Project Duration and
Funding
                                                                                    Funds
                                Phase II                                         Exceeding           Months of
                              Cumulative         SBIR           Non-SBIR        Recommended         Performance
                                Award            Funds            Funds            Amount           Beyond 24-
    Contract Number            (millions)      (millions)       (millions)        (millions)        Month Limit1

TARDEC2
 DAAE07-01-C-L010                $0.73            $0.73               0                 0                8
 DAAE07-01-C-L001                0.75             0.73             $0.02                0                8
 DAAE07-01-C-L079                 0.72             0.72               0                 0                6
 DAAE07-01-C-L097                0.72             0.72                0                 0                2
 DAAE07-02-C-L049                 0.73             0.73               0                 0                0
 DAAE07-01-C-L003                0.73             0.73                0                 0                3
 DAAE07-01-C-L034                 0.51             0.51               0                 0                0
 DAAE07-01-C-L018                1.61             0.98              0.63              $0.86             43

CERDEC3
 DAAB07-02-C-P609                $1.22            $0.97            $0.25              $0.47             0
 DAAB07-01-C-K602                1.22              0.97             0.25               0.47             17
 DAAB07-01-C-L728                 0.78             0.78               0                0.03             27
 DAAB07-01-C-L501                1.41              0.98             0.43               0.66             29
 DAAB07-01-C-J403                1.03              0.98             0.05               0.28             46
  Army Total                    $12.15           $10.53            $1.62              $2.76             19

ONR4
 N00014-02-C-0126                $0.75            $0.45            $0.30                0                0
 N00014-02-C-0295                 0.45             0.22             0.23                0                0
 N00014-01-C-0388                 0.30             0.30               0                 0                0
 N00014-01-C-0081                 1.65             0.91             0.75              $0.90              0




1
  The four averages shown in this column include only contracts exceeding the 24-month guideline.
2
  Tank Automotive Research, Development and Engineering Center.
3
  Communications and Electronics Research and Development Center.
4
  Office of Naval Research.


                                                   33
                                  Phase II                                  Funds
                                Cumulative                               Exceeding      Months of
                                  Award         SBIR       Non-SBIR     Recommended    Performance
                                  Amount        Funds        Funds         Amount      Beyond 24-
      Contract Number            (millions)   (millions)   (millions)     (millions)   Month Limit

NAVAIR5
 N68335-01-C-0292                    $1.47      $1.12        $0.35         $0.72           16
 N68335-01-C-0210                     1.47       1.32         0.15          0.72           16
 N68335-01-C-0323                     1.74       0.99         0.75          0.99           11
 N68335-01-C-0380                     0.99       0.99           0           0.24           23
 N68335-02-C-0007                     1.49       1.49           0           0.74           37
  Navy Total                         $10.31     $7.79        $2.52         $4.31           21

AFRL6
 F33615-01-C-5208                    $0.75      $0.75          0             0             15
 F33615-01-C-5407                     0.95       0.85        $0.10         $0.20           29
 F33615-01-C-1863                     2.38      1.00         1.38          1.63            67
 F33615-01-C-1872                     2.21       1.50         0.71          1.46           37
 F33615-01-C-1870                     1.53      1.31         0.22          0.78            46
 F33615-01-C-1866                     3.62       1.00         2.62          2.87           16
 F33615-01-C-1869                     1.88       1.50         0.38         1.13            23
  Air Force Total                    $13.31     $7.91        $5.40         $8.06           33

DARPA
 DAAH01-02-C-R213                    $1.15      $0.95        $0.20         $0.40           27
 DAAH01-01-C-R177                     0.75       0.75           0            0              9
 DAAH01-01-C-R181                     0.95       0.75         0.20          0.20           19
 DAAH01-02-C-R184                     0.75       0.75           0            0             18
 DAAH01-01-C-R156                    1.40        1.07         0.33         0.65            37
 DARPA Total                         $4.99      $4.27        $0.73         $1.25           22

      Grand Total                    $40.76    $30.50       $10.27         $16.38          24




5
    Naval Air Systems Command.
6
    Air Force Research Laboratory.


                                                 34
Appendix C. Summary of Client Comments
and Our Response
Client Comments on Background, Audit Objectives,
Internal Controls, and Contract Selection Methodology
Navy Comments on Background
The Assistant Secretary of the Navy (Research, Development, and Acquisition) disagreed
with a draft report background statement that the purpose of the DoD SBIR program is to
develop the innovative talents of small technology companies for U.S. Military and
economic strength by funding early-stage research and development. The Navy
recommended that the term “early stage” be stricken from the report. The Navy stated it
operates the SBIR program to fund innovative solutions to address military needs
including early stage to later stage research and development. The Navy noted that
focusing on early-stage research would negate the support received from military
acquisition programs and be counter to the audit report’s recognition of the importance of
strong acquisition support to affect a successful Phase III program.

Our Response
Based on the Navy comment we modified the report background phrase to include
“early-stage to later-stage” research and development.

DARPA Comments on Audit Objectives
The Director, DARPA stated that the audit report did not address audit objectives on
whether DoD is effectively managing the program overall or if the agencies are
effectively using the program to meet DoD research and development needs. DARPA
stated that the audit report focused entirely on tracking and reporting commercialization
success, which could be used, in part, to determine whether the projects developed for the
SBIR program result in products for commercial or military markets.

Our Response
Due to the broad area of the SBIR program, the audit report focused on specific areas of
SBIR compliance and improvement to demonstrate the effectiveness of DoD
management of the SBIR program and whether using the SBIR program for research and
development projects met DoD requirements. For example, to determine whether
projects met DoD requirements, the audit and technical subject matter expert staff
performed verification fieldwork to determine if decisions to advance SBIR projects to
Phase II were properly justified. To determine whether the projects developed for the
SBIR program result in products for commercial or military markets, we reviewed the
DoD tracking and reporting of commercialization success.




                                           35
DARPA Comments on Review of Internal Controls
DARPA disagreed with the report conclusion that an internal control weakness existed
with regard to management of Phase II contracts in accordance with SBA Federal
guidelines on period of performance and cumulative funding. DARPA noted the SBA
SBIR Policy Directive allows agencies to provide a longer performance period and
exceed award values where appropriate. DARPA also noted that SBA may adjust the
guidelines once every 5 years but has not done so since 1993. DARPA stated that its
internal controls include annual reporting to DoD of each occurrence exceeding the SBA
Policy Directive guidelines. DARPA believed that establishing inflexible performance
periods and hard funding ceilings would not make sense for research and development
programs and would diminish its ability to mature SBIR-developed technology for
transfer to the Military Departments or other Federal agencies.

Our Response
We continue to believe that an internal control weakness existed at the Army, the
Air Force, and DARPA with regard to management of Phase II contracts in accordance
with SBA Federal guidelines. As noted in numerous other responses to the DARPA
comments, we disagree with the DARPA position that the existing guidelines give SBIR
program managers and contracting officers unlimited flexibility relative to funding
amounts and periods of performance. Good Phase II internal controls should not focus
on implementing a policy of unlimited deviations from SBA Phase II guidelines, but,
rather focus on methods to obtain acquisition community support and non-SBIR funding
for resulting Phase III contract actions.

Navy Comments on Phase II Contract Selection Methodology
The Navy stated that a draft report statement indicated that our audit included
34 contracts with a total value of $40.8 million but did not detail how the audit data were
selected. The Navy recommended we add clarifying information that discusses the
method used for selection and advise the reader that the data used to derive the
conclusions in this report were not statistically relevant. The Navy stated that we briefed
to them that the contract selection was based upon the quantity of modifications that had
been executed. The Navy disagreed with the contract selection method used for the
sample because it believed the selection method could give the reader a false sense of the
state of the SBIR environment as the selection criteria increased the chances that
contracts exceeding both funding and the recommended 24-month period of performance
would appear.

Our Response
As noted in Appendix A, the 34 Phase II contracts were based on a judgmental sample of
34 high dollar value projects where Phase I contracts progressed to Phase II, from a
universe of 509 FY 2000 projects. Judgmental samples are by their nature not
statistically projectable to the universe as a whole, and the report makes no such
projection. We did not select contracts for review based upon the quantity of
modifications that had been executed. However, the audit judgmental selection
methodology of high dollar projects did increase the likelihood that resulting Phase II


                                            36
contracts could include modifications and exceed SBA funding guidelines. We attempted
to balance the finding B presentation with Company Commercialization Report data the
DoD SBIR Program Manager provided that showed approximately 30 percent of all
FY 2000 Phase II contracts exceeded the SBA recommended guidelines.

Client Comments on Finding A
OUSD and DARPA Comments on Reporting SBIR Commercial
Success
The OUSD commented that the audit should clarify or reconsider selected finding
language to ensure accuracy in intended meaning and consistency in relation to other
report findings: the OUSD believed the finding was unclear as to whether “transition to
Phase III contracts” referred to Phase III DoD or Federal prime contracts, or if Phase III
referred more broadly as a measure of SBIR commercialization, to include DoD and
Federal prime and subcontract activity as well as commercial sales, license or royalty
revenue, capital investment, derivative sales revenue, and other form of Phase III activity
defined by statute. The OUSD also recommended that we replace the phrase “transition
to Phase III contracts,” to “commercialize.”

While DARPA disagreed with several aspects of the finding, DARPA agreed that there
was no DoD guidance for tracking and reporting SBIR awards.

Our Response
While we agree that Phase III contracts are but one type of statutorily defined Phase III
SBIR outcome, we disagree to inserting the term “commercialize” when we are referring
to Phase III SBIR contracts or the opportunity for the Government to contract using
Phase III vehicles. The report use of the term “transition to Phase III contracts” is
appropriate as it is used to note the potential award of SBIR Phase III contracts, in most
cases the only likely and logical initial outcome for use of Defense technologies
developed to support specific Defense acquisition programs.

As described in Appendix A, the scope of our review covered DoD SBIR contractual
award data, including Federal procurement database (and former DD 350 database)
information that should, if fully used, include SBIR Phase I, II, and III contracting
actions. This is the only Government-generated SBIR metric available. Other types of
commercialization data (such as royalty revenue and sales revenue) OUSD referred to are
company-generated and self-reported.

Due to the repetitive nature of DARPA comments on Finding A we have not summarized
them in this section; rather the specific DARPA comments are noted in the following
client comment sections.

OUSD Comments on DoD Guidance
The OUSD stated that finding statements asserting that DoD has no overall guidance for
tracking and reporting SBIR awards needed to be clarified to eliminate ambiguity and


                                            37
possible misinterpretation. OUSD also stated that DoD had processes and procedures to
methodically collect SBIR Phase I and Phase II award information from DoD
Components on a quarterly basis and make the data publicly available on the SBIR
program Web site. OUSD also noted that SBIR awards are reported to the SBA annually
to comply with the SBA SBIR Program Directive.

Our Response
The OUSD annually posts on its Web site and reports to SBA the number of DoD-created
SBIR topics, the number of SBIR proposals submitted, and SBIR Phase I and Phase II
contract award amounts. The reporting is limited to Phase I and Phase II and does not
include any Phase III data. Both the DFARS and the OUSD memorandum, “Federal
Procurement Data System – Next Generation,” October 3, 2006, require actual awards to
be tracked and reported in the Federal Procurement Database. We believe that OUSD
needs to assert additional reporting focus over Phase III contractual activity, which is not
presently covered in the DoD SBIR Web site posting or reporting. We continue to
believe that OUSD needs to promulgate further guidance on recognizing, recording, and
reporting SBIR projects that qualify as Phase III commercialization.

OUSD and DARPA Comments on Company Commercialization
Report Database
The OUSD stated that the SBIR Company Commercialization Report database is the
DoD standard methodology, policy, and procedure for collecting commercialization data
and includes all types of Phase III activities, including revenue derived from Federal
prime contracts. The OUSD stated that participating SBIR firms enter and are required to
annually update the data while under contract or when submitting SBIR proposals. The
OUSD noted that SBIR firms are requested to update data for 5 years after Phase II
contract completion and that DoD will annually review the database to identify and
resolve reporting errors. The OUSD stated that the Company Commercialization Report
data are not reported to the SBA or Congress, as the SBA Tech-Net database does not
have the ability to accept the data. The OUSD stated it would support a Tech-Net
reporting effort when the SBA capability is in place, but noted a significant challenge
will be to define how data are to be kept current by participating firms or awarding
agencies. The OUSD believed that the Company Commercialization Report database is a
fair approximation of what the SBA Tech-Net database might eventually be. The OUSD
noted that we should revise a draft report comment regarding the capture of
commercialization data to indicate that 37 percent of Company Commercialization
Report database Phase II entries are funded by non-Defense agencies, such as the
National Aeronautics and Space Administration, the Department of Energy, and the
National Science Foundation. The OUSD also noted that these agencies capture 70 to
80 percent of non-DoD SBIR activity and that DoD represents more than 50 percent of
the Federal SBIR budget.

DARPA disagreed with the finding that there is no DoD guidance for tracking and
reporting SBIR awards. However, DARPA stated that, while this was a true statement,
there is no evidence in the report or any other study that such guidance would solve the
inconsistencies encountered in tracking Phase III success. DARPA believed that the


                                            38
SBA Policy Directive could be interpreted as requiring SBA to be responsible for
collecting and reporting Phase III information to Congress. But DARPA noted neither
the SBA Policy Directive nor the statute advises how Phase III awards should be
recognized, recorded, and reported. DARPA noted that a company does not have to be
small to receive a Phase III award; therefore, those awards may not be reported. DARPA
noted any reporting instructions should be specific to assure consistency in data
reporting.

Our Response
Based on OUSD comments, we revised the discussion on the Company Commercializa-
tion Report database to include non-DoD SBIR Federal activity in the database.
However, our report continues to state that since DoD had no overarching SBIR policy,
each of the Military Departments used different methodologies, policies, and procedures
for recognizing, recording, and reporting SBIR projects that qualify as Phase III
commercialization. While we agree that the Company Commercialization Report data
are essential for measuring private sector commercialization success, the Company
Commercialization Report data do not necessarily correlate with how well the DoD is
managing SBIR procurement-related activities. DoD also needs to focus on internally
generated performance measurements of SBIR success such as DoD Phase III contract
award data measured through the Federal Procurement Database System and the DoD
predecessor DD 350 system.

The DARPA comments fail to address the report section’s key issue that existing internal
DoD tracking mechanisms do not comply with existing requirements to enter Phase III
contracting actions into Federal procurement databases.

To ensure consistency, OUSD should promulgate a written management policy so the
SBIR program, contracting, and acquisition officials throughout DoD are on the “same
page” when it comes to recognizing SBIR commercialization success. As previously
stated, DFARS and the October 3, 2006, OUSD memorandum require Phase III
contracting actions to be identified and reported in the Federal Procurement Data System-
Next Generation database; the size of the business with a Phase III contract does not
change this requirement.

DARPA Comments on DoD SBIR Guidance
DARPA disagreed with report characterizations of DARPA in the DoD SBIR guidance
section of the report. DARPA suggested we use a DARPA-provided replacement
paragraph to more accurately portray DARPA business practices. DARPA stated that it
planned to add a Phase III section to the DARPA Instruction by October 1, 2008,
outlining the program managers’ responsibilities for facilitating Phase III opportunities
and a plan for tracking SBIR transfers to either the Military Departments or other Federal
agencies, or both.

Our Response
We consider the existing audit report characterization of DARPA in the DoD
SBIR guidance portion of the report to be fully supported by source documentation. The


                                            39
suggested DARPA paragraphs are included in the full text of the DARPA client
comments on report page 67.

OUSD and DARPA Comments on SBIR Reporting Through the
DoD Procurement Databases
The OUSD recommended we revise draft report statements regarding the Navy capturing
results to clarify what is meant by results. The OUSD also stated the report should be
modified to indicate the Navy has awarded the most SBIR Phase III-coded contracts and
that Phase III contract awards are one of many funding alternatives to achieving
commercialization. They believed that Federal contract awards tend to favor certain
technologies that are able to adhere to this business model. The OUSD also noted that a
discussion of program results should address the quality and character of SBIR-funded
research and development and the extent to which SBIR addresses Federal research and
development needs.

DARPA disagreed with report statements that it did not use the DD 350 database to track
its SBIR program. DARPA stated that the SBA Policy Directive does not require SBIR
data to be reported from the DD 350 database and that contracting data should not be
used to track SBIR Phase III actions. DARPA agreed with Table 1 conclusions that
SBIR contracting data are inconsistently reported across DoD. DARPA believed that the
contracting database deficiencies should be corrected by the Office of Defense
Procurement, Acquisition Policy and Strategic Sourcing rather than SBIR program
officers. DARPA also noted it uses a variety of contracting agents, who have the
responsibility to properly record actions in the contracting database in order to award
SBIR efforts.

Our Response
We revised the SBIR reporting through the DD 350 database discussion to note that the
Navy has awarded the most SBIR Phase III-coded prime contracts in the systems. We
continue to believe that Phase III contracts activity is the most important measure when it
comes to DoD SBIR results as discussed in the SBA SBIR Policy Directive. A Phase III
contract is the logical outgrowth of a process driven by an initial Phase I source selection
and Phase II development process and represents a significant amount of Government
funds provided to SBIR awardees. The OUSD comments did not include any
information to show that non-contractual Government Phase III funding would be
comparable in importance to Phase III contracts. As noted in one Navy SBIR briefing,
Navy Systems Commands managers, program executive officers, and SBIR managers all
have Phase III SBIR technology as a responsibility, and should focus on Phase III
metrics.

We found no indication that DARPA used the DD 350 or the Federal Procurement Data
System-Next Generation databases to track its SBIR program. Implementation of
Recommendation A.4. requiring contracting personnel to record Phase III contracting
actions and provide summary reports of Phase III contracting actions to OUSD will
increase commercialization reporting. We agree that the SBA Policy Directive does not
require SBIR contract data reporting, and such contract action database recording


                                            40
responsibility does resides with the contracting officer in accordance with
DFARS 204.670-2(a) requirements.

DARPA Comments on SBIR Commercialization Methods and
Practices
DARPA disagreed with draft audit report characterizations of DARPA in the institutional
design and SBIR champion sections of the report. DARPA suggested we use
replacement paragraphs in both sections to more accurately portray DARPA business
practices.

Our Response
We consider the existing audit report characterization of DARPA in the institutional
design and SBIR champion portions of the report as stated to be fully supported by
source documentation. The suggested DARPA paragraphs are included in the full text of
the DARPA client comments on page 71.

Navy Comments on Military Department-Generated
Supplemental SBIR Program Funding
The Navy agreed with report statements that DoD should be allowed to use some of the
SBIR set-aside monies for the management of the program, especially in the area of
increasing involvement by and transition into acquisition offices. The Navy noted that a
2006 DoD Congressional Change Request proposed that 0.075 percent be set aside for
management of the SBIR program. The Navy believed that no other single change to the
program would have a more direct benefit, especially if those funds were targeted
towards commercialization activities. The Navy stated that its Working Capital system
results in substantially higher SBIR administrative funding than for other Military
Services as the system requires the Navy to use research and development funding lines
to pay for employees at Navy laboratories and research and development centers. The
Navy also stated that more than 70 percent of Navy SBIR administrative funds are
collected through research and development funding lines. The Navy asserted that the
other Military Services do not use such research and development funding but rather use
management accounts to fund SBIR-related contract and technical oversight functions
performed at laboratory and research and development centers. The Navy said that only
Navy Headquarters Command personnel are funded through management accounts. The
Navy recommended the report add text to discuss the DoD congressional request for
SBIR management funding and the Navy Working Capital Fund system.

Our Response
Based on the Navy comments, we modified the report to discuss the DoD congressional
request for SBIR administrative funding and the Navy Working Capital Fund system.

OUSD and DARPA Comments on Potential Underreporting of
SBIR Successes
The OUSD stated that we should remove the statements referring to underreporting of
SBIR successes as having a potential impact on Congressional program reauthorization.


                                            41
The OUSD noted there was currently no systematic collection of SBIR
commercialization data by the SBA or subsequent reporting to Congress and the DoD
uses the SBIR Company Commercialization Report database and other program data to
support discussions with Congress about the SBIR program.

DARPA also disagreed, stating that its business model focuses on radical innovation,
which may take many years to prove feasible. DARPA believed there is a 5–7 year lag
from the time a topic is published to company sales, meaning that it may take several
years for a company to realize success from its SBIR efforts. DARPA believed early-
stage research will most likely not be ready for commercialization or transition at the end
of Phase II. In addition, DARPA noted its SBIR efforts are typically transferred to one of
the Military Services which then capture the technology as a Phase III success. DARPA
also noted that inconsistent recording and reporting of SBIR successes can result in over-
reporting as well as underreporting. DARPA believed that audit statements that small
businesses play a significant role in early-stage research contradicted the statement that
companies are not reporting their commercialization success.

Our Response
We continue to believe that inconsistent Military Service approaches to SBIR reporting
may have led to underreporting of SBIR successes and thus have a potential impact on
ongoing congressional SBIR program reauthorization. We agree that DoD Company
Commercialization Report database information will also affect congressional
perceptions on SBIR reauthorization. DARPA provided no examples to support its
statement that inconsistent recording and reporting of SBIR successes can result in
overreporting as well as underreporting. As noted in Table 1, inconsistencies in reporting
between the Services demonstrated the potential for underreporting. We selected
FY 2000 SBIR projects for audit review precisely because of the potential lag from SBIR
topic commercialization. Regarding other DARPA comments, we believe the report
statement that small businesses play a significant role in early-stage research is a fact of
the SBIR program.

Client Comments on Finding B
OUSD, Navy, and DARPA Comments on SBIR Phase II Contract
Management
The OUSD stated that finding B required clarification and drew misleading conclusions
that DoD Components routinely ignore the current statutory award guidelines for SBIR
Phase II contracts. The OUSD stated that all SBIR awards were in compliance with
statute, the SBA Policy Directive, and DoD standard procedures to award contracts
within statutory guidelines. OUSD stated Section (7) (h) of the SBA SBIR Policy
Directive permitted DoD standard procedures, and the DoD reports to the SBA consistent
with the Directive.

The Assistant Secretary of the Navy (Research, Development, and Acquisition)
recommended that portions of the finding B lead paragraph be removed. The Navy stated
that the SBA provides general terms and procedures to follow when deviating from its


                                            42
general guidelines and that there is no regulation limiting the term of a Phase II SBIR
contract to 24 months or the ceiling to $750,000. The Navy stated it holds its SBIR
program managers accountable for the successful performance of their programs and as
such, expects them to make decisions that further the Navy’s interests, and that to place
arbitrary limits on SBIR research, either with funding or time limitations, might limit the
effectiveness of the program and not be in the Government’s best interest.

The Director, DARPA disagreed with finding B that DARPA did not consistently follow
the SBA procedures regulating SBIR periods of performance and award amounts.
DARPA stated that SBIR award funding amounts and periods of performance are set
forth in the SBA Policy Directive as guidelines and that each DoD Component is required
to include in its SBIR annual report each instance of exceeding the guidelines. DARPA
stated that it was within the contracting officer’s discretion to extend a SBIR contract if
necessary to bring SBIR technology to a maturity level allowing transition or
commercialization. Further, adding funding and extending the period of performance to
an existing Phase II contract was warranted under the DoD Phase II enhancement rules.
DARPA also stated that a RAND Corporation study, “Measuring and Improving Results
from the SBIR Program: A Focus on Phase III Transition,” came to different conclusions
from those in finding B. DARPA questioned whether we used the RAND study results or
if we collected or compared Phase III success of SBIR projects that exceeded the
guidelines with those that did not exceed the guidelines. DARPA also noted that the
finding did not provide any examples of small business opportunities that were lost due to
receiving additional Phase II SBIR funding.

Our Response
We disagree that finding B draws misleading conclusions or should be deleted. We
disagree with the Navy premise that no regulation exists limiting the term or ceiling of a
Phase II SBIR contract. We also disagree with OUSD comments regarding the existence
of DoD standard SBIR contracting procedures in compliance with SBA policy directives.
As noted in the finding, the DoD SBIR program office did not issue any specific written
standard operating procedures to provide DoD Components with specific limits to phase
duration or award amounts. In the absence of specific DoD guidance, individual SBIR
managers allowed Phase II work to proceed beyond the SBA-recommended period of
performance guideline.

The SBA SBIR Policy Directive, Section 7, “SBIR Funding Process,” addresses the need,
as specified in legislation, for a simplified and standardized funding process. The Policy
Directive, section 7(g), “Period of Performance and Extensions,” states the following
types of Phase I and Phase II contract modifications should be kept to a minimum:
period of performance extensions, scope of work increases, and dollar amount increases.
The Policy Directive, section 7(h), “Dollar Value of Awards,” states that, as a general
rule, award amount guidelines are not to be exceeded. When this general rule is
exceeded, the Policy Directive requires Federal agencies to submit to SBA a written
justification. Our review of SBIR Phase II contracts showed that the Policy Directive’s
award amounts and period of performances were not being adhered to; the written
justifications that the DoD submitted to SBA were single sentences, generically


                                            43
applicable to all SBIR projects. Therefore, DoD did not have internal controls for
complying with the SBIR funding process guidelines.

While we agree that SBIR program managers should be held accountable for program
performance, we found nothing during our review to support Navy comments that any
attempt to enforce the SBA-recommended guidelines would be arbitrary, would limit
SBIR program effectiveness, or not be in the Government’s best interest. While DoD
reports to the SBA those SBIR awards made in excess of the prescribed SBA guidelines,
we noted that none of 10 “check-off” justifications the DoD SBIR program office used to
justify exceeding SBA funding guidelines were included in official DoD policy. In
addition, SBA SBIR officials stated that they did not consider the DoD justifications in
and of themselves sufficient to support deviations from recommended SBA funding
guidelines. We concluded that the DoD SBIR program office had no internal controls
over the preparation or validation of additional funding justifications or the accuracy of
the data provided to SBA.

Our audit results support the DARPA statement that the agency did not consistently
follow the SBA procedures regulating SBIR periods of performance and award amounts.
For example, all five DARPA contracts we reviewed exceeded SBA period of
performance guidelines by an average of 22 months. The DoD SBIR Resource Center
Web site guidance notes that the DoD Phase II enhancement program is intended to
encourage rapid transition into commercialization.

We did not rely on any RAND product in preparing our report. We could not locate the
RAND study cited in the DARPA comments. DARPA subsequently stated to us that the
citation was in error and referred us to RAND April 26, 2007, testimony, “Improving the
Department of Defense’s Small Business Innovation Research Program,” made before
the House Science and Technology Committee, Subcommittee on Technology and
Innovation. The RAND testimony is consistent with our report findings. The testimony
concluded that:

               The effectiveness of the [SBIR] program in generating technology,
               products, services and process that are utilized by the armed forces is
               less clear. As a result, the DoD may not be taking the best advantage of
               the research results that emerge from its SBIR program, and the small-
               business participants may not be getting the commercialization
               opportunities that would turn their innovations into sales or other
               sources of revenue.
                         •         •        •         •        •        •       •
               Absent steps to increase the willingness and capability of the DoD
               acquisition community to participate in the SBIR program, it is
               unlikely that other commercialization and financing efforts will be very
               successful. . . . In addition, policies that require and encourage DoD’s
               acquisition program managers to administer SBIR projects as a
               resource will improve the likelihood that SBIR research results will
               transition into technologies, products, services and processes used by
               the soldiers, sailors, airmen and marines of America’s armed forces.




                                                 44
OUSD, Navy, and DARPA Comments on SBIR Phase II Contract
Period of Performance and Funding
The OUSD stated that the office overseeing SBIR technology development sometimes
modified the Phase II contract directly using either SBIR or non-SBIR funding and that
non-SBIR funds were sometimes obtained through a risk-sharing arrangement with a
commercial or Government partner, such as an acquisition program office, through a
Phase II enhancement program. The OUSD stated that such contract modifications were
normally funded to further develop and bring to maturity technologies for transition to
another (non-SBIR) funding source. The OUSD considered flexible application of
additional funds from both SBIR and non-SBIR funding sources through SBIR Phase II
and Phase III contract vehicles as critical to program success.

The Navy stated that finding B conclusions were derived principally from a review of
only 9 of 119 Navy FY 2000 SBIR awards. The Navy offered its own assessment of
FY 2000 Navy SBIR Phase II projects based on a Company Commercialization Report
database query. The Navy stated it made 115 FY 2000 awards, of which 89 were funded
at or below the $750,000 guideline and 26 above the guideline. The Navy stated it found
a positive correlation between awards of more than $750,000 and commercialization
success, in that 48 percent of the 89 Phase II awards at or below the $750,000 guideline
received Phase III funding with an average dollar value of $1.1 million. The Navy noted
that 61 percent of the 26 Phase II awards over $750,000 received Phase III funding at an
average dollar value of $1.4 million. The Navy also reviewed Navy Phase II projects in
the Company Commercialization Report database for FYs 1999 and 2001 and stated the
results were generally consistent with a pattern of increased Phase III commercialization
for Phase II awards funded above the $750,000 level. The Navy recommended that we
revise finding B and associated recommendations on SBIR transition or
commercialization based on the Navy assessment of the Company Commercialization
Report data for the 3-year period.

DARPA did not agree with a report statement that DoD did not have a formal instruction
implementing SBA policy. DARPA believed that the report made conflicting statements
regarding the SBA Policy Directive providing guidelines and the lack of guidelines
provided by DoD, the Air Force, and DARPA.

Our Response
Based on OUSD comments, we revised the finding B discussion to include a more
detailed description of the DoD Phase II enhancement program and how the program was
used in the contract actions our audit reviewed. DoD SBIR program policy limits Phase
II enhancements to a 1-year extension of the existing Phase II contract, and provides
matching non-SBIR funds of up to $500,000. Our audit found no indication that treating
the SBIR Phase II contract SBA guideline as a normative cap with qualified application
of a 1-year Phase II enhancement program would in any way limit the effectiveness of
SBIR program performance. As noted in finding B, of 34 Phase II contracts reviewed,
14 were part of the DoD Phase II enhancement program. However, 12 of the
14 enhancement program contracts exceeded DoD’s own 1-year program extension limit



                                           45
clearly supporting the need to stress that contracting officers adhere to SBA guidelines
and period of performance limits on contract modifications for enhancements.

The FY 2000 Navy Company Commercialization Report data cited in the Navy client
comments were generally consistent with FY 2000 Company Commercialization Report
data the DoD SBIR Program Manager provided to us and presented in Table 3. We
considered the commercialization data the DoD SBIR Program Manager provided in
conjunction with our review of the 34 DoD (including 9 Navy) FY 2000 Phase II
contracts. The Company Commercialization Report data are limited in that they provide
insight only into the number of contracts that exceed SBA-recommended funding
constraints and does not cover period of performance data. In addition, Company
Commercialization Report funding data are limited because the collection of the data
relies on SBIR companies to self-report and is not verifiable without specific review of
Government funding and contract records. We did not verify the voluminous FY 2000
Company Commercialization Report data DoD provided, and as such limited our reliance
on the data. While we agree with Navy comments that FYs 1999 and 2001 Navy
Company Commercialization Report data were generally consistent with FY 2000 data,
we do not believe that such unverified data would significantly alter the finding or the
recommendations.

The report statement that DoD does not have a formal instruction implementing SBA
policy is factually correct and agreed to in the OUSD comments. Furthermore, DARPA
did not provide any example to support its contention that the report statements conflict
regarding DoD implementation of the SBA guidelines.

DARPA Comments on SBIR Period of Performance Guidelines
DARPA stated that, in its 1996 instruction, the SBA Policy Directive was referenced but
did not reiterate the SBA guidelines. However, DARPA stated that it will include the
SBA guidelines in the next revision of the DARPA instruction planned for March 2009.

Our Response
We applaud DARPA’s decision to include the SBA guidelines in the next revision of the
DARPA instruction. As noted above, the 1996 DARPA instruction did not include any
SBA guidelines or procedures advocating the moving of SBIR projects to and from
Phase II to Phase III. The new DARPA instruction should include specific
responsibilities to advocate, monitor, and support commercialization of SBIR projects
meeting DoD needs.

DARPA Comments on Funding Amount Guidelines
DARPA stated that it follows SBA funding amount guidelines but makes exceptions on a
case-by-case basis at the discretion of the DARPA Deputy Director. DARPA stated it
reports all funding amount exceptions in its annual report to DoD. DARPA noted that it
does not use SBIR funds for Phase III awards.




                                            46
Navy Comments on Navy Phase II Contract Reviewed by
the Audit
The Navy stated that the Navy SBIR Phase II contract (N68335-02-C-0007) cited in the
report was an example of the value of the Navy SBIR approach. The Navy stated that the
SBIR firm obtained $14.9 million in non-SBIR funding on a separate Phase III contract
(N68335-04-D-0018) when three Navy offices came forward with matching funds
totaling $9 million. The Navy disagreed with report language that Navy contracting
officials should have determined whether transitioning this contract from a Phase II to a
Phase III contract was appropriate. The Navy noted that there was no indication that such
a determination was not made.

Our Response
Based on the Navy comments, we revised the report discussion regarding contract
N68335-02-C-0007 to note the use of the Navy Phase II enhancement program and the
issuance of concurrent Phase III contract N68335-04-D-0018 to the same SBIR
contractor. We found no indication in the N68335-02-C-0007 contract file or during
interviews of available program personnel to indicate whether or when Navy contracting
officials determined that the project should transition from a Phase II to a Phase III
contract.

Navy Comments on Phase II Enhancement Program
The Navy stated that its Phase II enhancement program is meant to incentivize or
leverage the acquisition programs funds with SBIR funds to help motivate the acquisition
program manager to get a Phase III contract in place for a SBIR project. The Navy stated
its Phase II enhancement program provides up to $250,000 of SBIR funding for every
acquisition program that provides non-SBIR funds in Phase III. The Navy believes the
program has been highly successful, but noted that at some point in a project’s evolution,
Phase II funding must be “turned off” and only non-SBIR Phase III funds be applied.

Our Response
Our audit did not specifically review and makes no conclusions regarding the
effectiveness of the Navy Phase II enhancement program.

OUSD and DARPA Comments on DoD Data on Contract Periods
of Performance
The OUSD noted that of the 550 Phase II awards derived from FY 2000 solicitations,
516 (94 percent) were within SBA guidelines at the time of award, and that 172 of these
awards were eventually modified beyond SBA guidelines and were reported by DoD to
SBA as required by the SBA Policy Directive. The OUSD stated that 90 of the
172 Phase II awards that extended beyond SBA guidelines did so via Phase II
enhancements. The OUSD believed where Phase II non-SBIR Government funding or
commercial funding was applied on a discretionary basis, the Government and the
recipient firm benefited both from the performance of additional Federal research and
from the increased opportunity for technology commercialization.



                                           47
DARPA stated that, under the authority of the contracting officer, it extends the period of
performance and funding over SBA-recommended guidelines based on the program
manager’s recommendation and at the discretion of the DARPA Deputy Director.
DARPA noted that the practice was consistent with its business model to pursue radical
innovation.

Our Response
Excessive extensions of contractual work through modifications caused SBA-
recommended guidelines to be exceeded. As noted in the finding, our review of 34 DoD
contracts showed that 27 contracts extended Phase II work by an average of 24 months
beyond the 24-month period of performance recommended in the SBA Policy Directive.
Contrary to the implication of the OUSD comment, the number of Phase II awards
derived from FY 2000 solicitations that exceeded SBA period of performance guidelines
cannot be determined. Rather, the above OUSD data can only provide insight into the
number of contracts that exceed SBA-recommended funding constraints. Using the
above OUSD numbers, at least 82 (14.9 percent) of the 550 contract actions exceeded the
SBA $750,000 Phase II award funding guideline. The 82 actions were not part of the
DoD Phase II enhancement program and thus should not have received additional SBIR
funding above the $750,000 SBA guideline without written justification. In addition,
OUSD FY 2000 data revealed that the Air Force exceeded the Phase II funding
guidelines 39.2 percent of the time, with an average award amount of $913,066.

Navy and DARPA Comments on SBIR Program Controls
The Navy and DARPA disagreed with report statements that SBIR program offices did
not have consistent procedures in place to adequately adhere to SBA guidance on
Phase II recommended periods of performance and cumulative award amounts. The
Navy stated that its SBIR office had procedures on reporting and monitoring Phase II
periods of performance and funding amounts and followed SBA guidance. The Navy
noted that the SBIR program office and its Systems Commands have developed a “gated
process” for Phase II awards that allow extensions and expansions if milestones were
met, transition agreements were increased, and matching non-SBIR funds provided. The
Navy believed the strategy was in accordance with 2006 GAO recommendations on DoD
technology transition improvement. The Navy also noted that it just completed and
released an 18-month study of Navy SBIR Best Transition Practices that includes the
“gated process” Phase II strategy. DARPA stated that each DoD Component makes the
decision to exceed SBA recommended periods of performance and funding guidelines
based on mission requirements and that implementing DoD guidance would limit DoD
Component flexibility to exceed the SBA guidelines when appropriate.

Our Response
Based on the Navy comments, we modified the report to note the April 2008 Navy SBIR
best practices study. The 2006 GAO recommendations and accompanying audit results
do not include any reference to the SBIR program or small business research and
development requirements. As such, we did not consider the GAO review and
recommendations, or Navy steps taken to implement the recommendations, germane to
Navy SBIR program controls. In addition, we do not consider any method, including the


                                            48
“gated process” strategy as a SBIR program control adhering to SBA Phase II
recommended periods of performance and cumulative award amounts if the resulting
Phase II extensions, expansions, and transition agreements are outside the SBA and DoD
Phase II enhancement program guidelines. As such, we do not agree with DARPA
comments that DoD Components should have unlimited flexibility to exceed those same
SBA guidelines.

OUSD, Navy, and DARPA Comments on Achieving SBIR
Commercialization
The OUSD, the Navy, and DARPA disagreed with finding comments that SBIR projects
were not progressing through the appropriate phases to achieve two of the four statutory
purposes of the program. The OUSD stated that the DoD Phase II enhancement program
correlates to both higher rates and levels of commercialization among recipient firms
based on analyses the National Academies of Science performed and has been identified
as a best practice in the Federal SBIR program. OUSD noted that over the 10-year period
from 1997 to 2006, 675 Phase II enhancements generated commercialization at a
76 percent rate compared to a 45 percent rate for a broader pool of 8,657 Phase II awards
that were not enhanced, and that median commercialization for awards of enhanced
projects was $815,000 compared with $425,000 for non-enhanced projects. OUSD also
noted that for Phase II awards derived from FY 2000 solicitations cited in the audit, those
receiving additional funding attracted non-SBIR Government and non-Government
funding at a rate of 70 percent with median reported commercialization of $652,000
versus a rate of 54 percent with median commercialization of $388,000 for those project
awards that were not modified beyond program guidelines. The Navy stated that the
Navy SBIR community experience and assessment of Company Commercialization
Report data supported a conclusion opposite of that drawn by the finding and that the
report recommendations should be substantially revised to reflect the Navy experience.
DARPA stated that the SBIR program is not a linear process that simply progresses from
Phase I to Phase II to Phase III because it is based solely on the progress of the
technology. DARPA noted it is essential to sometimes extend the Phase II period of
performance and increase the funding amount above the SBA guideline in order to
address technical challenges and raise the level of maturity to be considered for a
Phase III opportunity.

Our Response
We revised the final report to provide further discussion on the DoD Phase II
enhancement program. However, our audit did not specifically review and makes no
conclusions regarding the effectiveness of the program. The OUSD comments
mistakenly assume that the application of the Phase II enhancement program is the most
important factor for variations in performance periods and SBIR funding beyond SBA-
recommended guidelines. As noted in the finding, we found that 27 of 34 Phase II
contracts reviewed extended Phase II work beyond the SBA-recommended guidelines.
Of those 27 contracts, 14 were not part of the Phase II enhancement program. For 13 of
the 27 contracts that were part of the Phase II enhancement program, 12 contracts
exceeded the enhancement program’s 1-year extension limit. Similarly, we found that 21
of 34 Phase II contracts reviewed included Phase II SBIR funds above SBA-


                                            49
recommended guidelines. Of those 21 contracts, 13 either were not part of the Phase II
enhancement program or implemented a Phase II enhancement that exceeded the DoD-
mandated additional $500,000 SBIR funding limit. Thus, OUSD should not use the
program itself as an explanation for the unsupported extension and funding of SBIR
projects beyond SBA-recommended guidelines. While, as noted throughout the report,
we value and generally approve of Navy SBIR practices and the Navy SBIR community
experience, we do not believe that unverified Company Commercialization Report data
the Navy presented would significantly alter finding B or related recommendations. We
consider the DARPA position on technology development, while having some
argumentative merit, inconsistent with the existing SBA Policy Directive guidance on
Phase II funding and periods of performance.

DARPA Comments on Acquisition Process
DARPA did not agree with report comments that the SBIR phases follow the DoD
Defense Acquisition life cycle phases for major acquisition programs. DARPA stated
that some SBIR program technologies may not follow the acquisition process and may
take longer to transition or conversely could be more rapidly commercialized to the
private sector and become off-the-shelf products that the Military can purchase.

Our Response
While we agree that in truly exceptional instances SBIR program technologies may not
follow the acquisition process life cycle, the DARPA comment misses the point that
SBIR must primarily support the DoD acquisition life-cycle process in a timely manner.
The SBA Policy Directive recognizes that Phase III work can also include additional
research and development. For most DoD SBIR projects, direct funding support will end
and the acquisition community must pick up the Phase III funding responsibility. As
noted in the report, Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics April 2000 guidance advocated such rapid technology
transition and acquisition community support.

DARPA Comments on Small Business Needs
DARPA did not agree with a report statement that the practice of extending the time a
project remains in Phase II may cause SBIR awardees to lose opportunities for additional
private sector capital funding support. DARPA stated that, in many cases, the practice of
extending Phase II contracts is necessary to bring the technology to a maturity level so it
can be transitioned or commercialized.

Our Response
We continue to believe that SBIR awardees could lose opportunities for additional private
sector capital funding if a project remains unnecessarily in Phase II. For example, the
National Academy of Sciences noted that venture capital firms normally prefer to wait
until a SBIR firm’s growth prospects are well advanced before committing capital, due to
limited information about small firms. To receive private sector funding support small
firms must cross a funding gap from early stage to later stage development.




                                            50
Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments




                    Click to add JPEG file




                                   51
                           Final Report
                            Reference




                         Page 4




Click to add JPEG file




               52
Click to add JPEG file




               53
Click to add JPEG file




               54
Click to add JPEG file




               55
                           Final Report
                            Reference




Click to add JPEG file

                         Page 18




               56
Click to add JPEG file




               57
Click to add JPEG file




               58
Department of the Navy Comments




                  Click to add JPEG file




                                 59
Click to add JPEG file




               60
                           Final Report
                            Reference




                         Executive
                         Summary of the
                         draft report
                         replaced with
                         Results in Brief in
                         the Final Report.
                         Sentence in
                         question moved to
                         page 29.

                         Information on
                         page 16




Click to add JPEG file




               61
                           Final Report
                            Reference




                         Page 16

Click to add JPEG file




                         Page 18




               62
                           Final Report
                            Reference




                         Attachment 2 not
                         included due to size




Click to add JPEG file




               63
                           Final Report
                            Reference




Click to add JPEG file

                         Statement deleted
                         from Report



                         Page 21




               64
                           Final Report
                            Reference




                         Page 22




Click to add JPEG file




               65
Defense Advanced Research Projects Agency Comments




                  Click to add JPEG file




                                 66
Click to add JPEG file




               67
                           Final Report
                            Reference




                         Page 1




                         Page 30




Click to add JPEG file




                         Page 3




               68
                           Final Report
                            Reference




                         Page 3
Click to add JPEG file
                         Page 4




               69
                           Final Report
                            Reference




                         Page 5




Click to add JPEG file   Page 6




                         Page 7




               70
                           Final Report
                            Reference




                         Page 8




Click to add JPEG file
                         Page 10




               71
                           Final Report
                            Reference




                         Page 11




Click to add JPEG file   Page 13


                         Page 14




                         Page 15




                         Page 16




               72
                           Final Report
                            Reference




                         Page 16


Click to add JPEG file

                         Page 16




                         Page 16




               73
                           Final Report
                            Reference




                         Page 17




                         Page 17

                         Page 17




                         Page 21

Click to add JPEG file   Page 22




                         Page 22




               74
                           Final Report
                            Reference




                         Page 22




                         Page 23

Click to add JPEG file




                         Page 23




                         Page 25




               75
                           Final Report
                            Reference




                         Page 27




Click to add JPEG file




               76
